<html>
<title> - PERSPECTIVES ON BUDGET PROCESS REFORM: S. 1495, FAIRNESS FOR CRIME VICTIMS ACT OF 2015</title>
<body><pre>[Senate Hearing 114-283]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-283

        SENATE BUDGET COMMITTEE FIELD HEARINGS FISCAL YEAR 2016

=======================================================================

                                HEARINGS

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________


 June 8, 2015-PERSPECTIVE ON BUDGET PROCESS REFORM: S. 1495, FAIRNESS 
                     FOR CRIME VICTIMS ACT OF 2015
         August 26, 2015-FIELD HEARING ON TAX-RELATED IDENTITY
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


                               ___________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-729                          WASHINGTON : 2016                        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  




                        COMMITTEE ON THE BUDGET

                   MICHAEL B. ENZI, WYOMING, Chairman

CHARLES E. GRASSLEY, Iowa            BERNARD SANDERS, Vermont
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
MIKE CRAPO, Idaho                    RON WYDEN, Oregon
LINDSEY O. GRAHAM, South Carolina    DEBBIE STABENOW, Michigan
ROB PORTMAN, Ohio                    SHELDON WHITEHOUSE, Rhode Island
PATRICK TOOMEY, Pennsylvania         MARK R. WARNER, Virginia
RON JOHNSON, Wisconsin               JEFF MERKLEY, Oregon
KELLY AYOTTE, New Hampshire          TAMMY BALDWIN, Wisconsin
ROGER F. WICKER, Mississippi         TIM KAINE, Virginia
BOB CORKER, Tennessee                ANGUS S. KING, JR., Maine
DAVID A. PERDUE, Georgia


                 Eric Ueland, Republican Staff Director

                Warren Gunnels, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                                HEARINGS

                                                                   Page

June 8, 2015-PERSPECTIVE ON BUDGET PROCESS REFORM: S. 1495, 
  FAIRNESS FOR CRIME VICTIMS ACT OF 2015.........................     1

August 26, 2015-FIELD HEARING ON TAX-RELATED IDENTITY............    55

                    STATEMENTS BY COMMITTEE MEMBERS

Chairman Enzi 
Ranking Member Sanders 


                               WITNESSES

Peg, J. Dierkers, Ph.D, Executive Director, PA Coalition Against 
  Domestic Violence 



Honorable J. Russell George, Inspector General for Tax 
  Administration, Department of the Treausy 



Honorable John A. Koskinen, Commissioner, Internal Revenue 
  Service 



Chistropher Lee, Senior Attorney Advisory, National Taxpayer 
  Advocate Service 



Diane Moyer, Legal Director, PA Coalition Against Rape 



Abbie Newman, RN, Executive Director and Chief Executive Officer, 
  Mission Kids Child Advocacy Center of Montgomery County, PA 



John C. Walker, Enrolled Agent, J. Walker and Company, LLC 



Lori Weeks, Straford, Tax-Related Identity Theft Victim 



John Whelan, District Attorney, Delaware County, PA 




                         QUESTIONS AND ANSWERS

Questions and Answers 




 
  PERSPECTIVES ON BUDGET PROCESS REFORM: S. 1495, FAIRNESS FOR CRIME 
                          VICTIMS ACT OF 2015

                              ----------                              


                          MONDAY, JUNE 8, 2015

                              United States Senate,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:00 a.m., in 
the Martin G. McGuinn 67 Ceremonial Courtroom, Second Floor, 
Villanova University School of Law, 299 North Spring Mill Road, 
Villanova, Pennsylvania, Honorable Pat Toomey, presiding.
    Present: Senator Toomey.
    Staff Present: Adam Kamp, Chief Clerk; and Gregory Dean, 
Republican Chief Counsel.

              OPENING STATEMENT OF SENATOR TOOMEY

    Senator Toomey. Good morning. I will call to order this 
hearing of the Budget Committee of the United States Senate.
    I want to, first of all, welcome everyone for being here, 
for joining us this morning. I want to thank our witnesses. I 
will provide an introduction and more formal acknowledgement 
and thanks in just a minute, but I really appreciate your being 
here and making this possible. And, a big thanks to our host, 
the Villanova Law School. I really, really appreciate their 
willingness to provide an outstanding facility so that we can 
do this.
    Just for your information, I am a member of the Senate 
Budget Committee and the committee has rules that permit 
individual members to have field hearings across their 
respective states, but it is unusual to do it. It has to be 
approved by the leadership of the committee. And, this is the 
first field hearing that I have done since I have joined the 
Senate and joined the Budget Committee. But, I have chosen this 
topic because I feel very, very strongly about it. I think the 
problem that we are going to discuss this morning and the 
remedy that we have developed is really very, very important, 
and I hope that through the discussion this morning we will be 
able to shed some light on this and call some attention to the 
situation that we face. So, thank you for helping us to 
accomplish that.
    The fact is, every single year, victims of child abuse, 
sexual assault, domestic violence, and other crimes do not 
receive the full services that they need. The fact is, abused 
children sometimes wait weeks before they can receive the full 
medical and emotional services that they need. There are rape 
victims who are not able to obtain the medication that can 
prevent them from contracting HIV/AIDS. There are victims 
fleeing domestic abuse who are unable to find beds for 
themselves and their children.
    And, this does not have to happen this way. Every year, the 
federal government takes hundreds of millions of dollars, 
sometimes billions of dollars, that under federal law are 
required to go to the victims of crime and the government 
instead diverts those monies to other discretionary spending 
programs. And, none of this money comes from taxpayers in the 
first place.
    So, you are probably asking yourselves, how can this 
happen? Well, it happens through the Crime Victims Fund, and I 
am going to describe this. Back in 1984, Congress created the 
Crime Victims Fund based on a simple principle, and the 
principle is that money that the federal government collects 
from those convicted of crimes should be used to help those who 
are victims of crime. The Crime Victims Fund receives no 
taxpayer dollars at all. It is funded entirely by criminal 
fines and penalties collected in federal courts.
    So, even though money deposited in the Crime Victims Fund 
is supposed to be used only to assist crime victims, for over a 
decade, Congress has withheld billions of dollars from victims 
and instead used that money to offset other discretionary 
spending programs.
    For instance, from fiscal years 2010 through 2014, the 
Crime Victims Fund collected $12 billion, but dispersed to 
victims only $3.6 billion. Congress used the $8.4 billion 
difference as an offset for other discretionary spending. And, 
through a budget gimmick, a gimmick in the rules by which 
Congress accounts for its spending, Congress represents that 
this money, money that has already been spent, is still 
available to the Crime Victims Fund and, therefore, still 
theoretically available for victims.
    Well, this gimmick is troubling from a transparency point 
of view. It is just dishonest budgeting and it allows Congress 
to under-report the amount of money that is being spent. But 
even more troubling is the problem from the victims' services 
standpoint. As I said, victims of child abuse, sexual assault, 
domestic violence, and other crimes are routinely unable to 
access the help that they need because the funds have not been 
dispersed as they should.
    So, we have made some progress in recent years. I was 
pleased to see, in response to pressure that many of us were 
putting on the appropriations process, the fiscal year 2015 
budget, the Crime Victims Fund allocation was $2.3 billion, 
versus $745 million the previous year. So, we about tripled the 
allocation from the Crime Victims Fund.
    And, in addition, the budget resolution that we just passed 
a couple of months ago, at my insistence, it dramatically 
curtails this gimmick for the next fiscal year. So, in 2016, 
according to our budget resolution, the Crime Victims Fund will 
disperse about $2.5 billion. Again, we are holding--actually 
increasing modestly from last year's level, which is itself 
three times higher than previous years.
    So, what is the impact in Pennsylvania? In 2014, 
Pennsylvania crime victims services organizations received $17 
million. Next year, that will be $70 million. So, it is a big 
increase. It is a good start. It is movement in the right 
direction.
    But, it is only a start because these provisions that 
caused the increase in fiscal year 2015 and 2016, they are 
temporary. They expire when the funding expires. They expire at 
the end of those fiscal years. So, what we need is a permanent 
legislative fix that simply requires that we end this injustice 
and we start allocating the funds in the Crime Victims Fund 
each and every year as the law has always contemplated, but not 
delivered.
    So, to do this, I have introduced a bill. It is called the 
Fairness to Crime Victims Act of 2015. It is S. 1495. And, it 
would provide a permanent fix. The bill would ensure that, 
henceforth, money deposited into the fund goes to crime 
victims, not to other discretionary spending or budget 
gimmicks. It would require specifically that each year, the 
Crime Victims Fund disperse the average of the past three 
years' collections. So, it smooths out the amounts deposited 
into the funds each year. That would be over $2.6 billion for 
2016. I have six cosponsors on my legislation, Senators Ayotte, 
Corker, Crapo, Gardner, Hatch, and Johnson.
    And today, I am grateful that we are joined by four 
advocates for victims of crime, advocates who can inform our 
committee of the needs of crime victims, the way that they 
serve crime victims, and including those victims listed as 
priority groups under the Crime Victims Fund, which are 
specifically the victims of sexual assault, victims of child 
abuse, and victims of domestic violence.
    So, my hope is, again, that we will shine a bright light on 
the true cost of this budgetary gimmickry that Congress has 
undertaken and the true cost is the lost service to crime 
victims who need this service. If we are successful in shining 
that light, it is my hope that we will build support in the 
Senate Budget Committee. I expect that we will have an 
opportunity to pass this legislation in the committee as soon 
as the next several weeks, and then it will be a fight to get 
this on the Senate floor so that we can pass it into law and 
implement this.
    So, again, big thanks to our witnesses. I am going to 
introduce our--I will introduce each of the witnesses and then 
I will ask for your testimony, and then we will have time for 
some questions at the end.
    Let me start with Jack Whelan. Jack Whelan is the District 
Attorney of Delaware County. Jack has been dedicated to 
criminal justice for decades. Back in the 1980s, when he was an 
Assistant District Attorney in Delaware County and a trial team 
leader, he led the respected law firm of Whelan, Doyle, and 
Pressman. He served two terms as Chairman of the Delaware 
County Council, where he made public safety a top priority. 
Since 2011, when he became the District Attorney for Delaware 
County, Jack has led on several issues, including founding the 
Delaware County Heroin Task Force to raise awareness about 
prescription drugs and heroin abuse.
    He has received many honors from victims' rights groups and 
victim advocacy groups. I am very pleased that in April, the 
Delaware County Children's Advocacy Center had its official 
opening, and I know that the Children's Advocacy Center 
appreciates having a talented and dedicated ally in Jack 
Whelan.
    Next, we will hear from Abbie Newman. Abbie is the 
Executive Director and CEO of Mission Kids Child Advocacy 
Center of Montgomery County, and Abbie has been a tireless 
advocate for children. She began her career as a registered 
nurse practicing pediatrics. But after graduating from law 
school, she in time became the founding Executive Director of 
the Mission Kids of Montgomery County and served as the group's 
Executive Director and CEO to this day. Ms. Newman also served 
as President of the Pennsylvania Chapter of Child Advocacy 
Centers from 2012 to 2014, when she was elected as First Chair 
of the External Affairs Committee of the State Chapter, in 
which position she continues today.
    I want to thank Abbie very much and the other advocates at 
Child Advocacy Centers throughout Pennsylvania. I have had an 
opportunity to tour probably six or eight Child Advocacy 
Centers in Pennsylvania and I have been very, very impressed at 
how devoted these folks are to serving kids who are the victims 
of some of the most horrendous circumstances. They really do a 
wonderful job, and Abbie, I want to thank you for joining us 
today.
    Next, we will hear from Diane Moyer. Diane is the Legal 
Director at the Pennsylvania Coalition Against Rape. Diane is a 
fighter and she has been fighting for victims of sexual assault 
for decades. She served for 18 years as the Legal Director of 
the Pennsylvania Coalition Against Rape, which is the oldest 
anti-sexual violence coalition in the nation. The Pennsylvania 
Coalition Against Rape oversees 50 Rape Crisis Centers in 
Pennsylvania. I had the opportunity to visit one of these, the 
Pittsburgh Action Against Rape Center, and saw firsthand the 
valuable work that they do.
    Diane is a board member of the National Crime Victims Law 
Institute and the National Alliance to End Sexual Violence. She 
has worked on many pieces of legislation to achieve justice for 
victims of sexual assault, including legislation on HIV testing 
of sex offenders, extending civil statute of limitations for 
child sexual abuse, denial of bail for violent predators, and 
many others. Diane has also received awards from numerous 
organizations reflecting the great work that she has done over 
many years, and she has been invaluable in helping to craft the 
Fairness for Crime Victims Act. I appreciate all of your help, 
Diane.
    And then, finally, Peg Dierkers. Peg Dierkers is the 
Executive Director of the Pennsylvania Coalition Against 
Domestic Violence. Peg is dedicated to providing the best, most 
innovative and comprehensive service possible for victims of 
abuse. She has been the Executive Director of the Pennsylvania 
Coalition Against Domestic Violence, which serves nearly 
100,000 victims in Pennsylvania each year, and serves on the 
Victims Services Advisory Committee for the Pennsylvania 
Commission on Crime and Delinquency.
    Peg and her policy advisor, Abigail Hurst, have been very, 
very helpful in drafting the Fairness for Crime Victims Act and 
I look forward to continuing to work with you, Peg, to prevent 
and assist victims of domestic violence.
    So, with that, we will begin our testimony, and first, I 
would like to hear from District Attorney Jack Whelan.

 STATEMENT OF JACK WHELAN, DISTRICT ATTORNEY, DELAWARE COUNTY, 
                          PENNSYLVANIA

    Mr. Whelan. Thank you, Senator. I want to start by saying 
it is an honor for me to appear before you today, and I want to 
take the opportunity to thank you for your leadership, not only 
today for the Fairness for Crime Victims Act, but your past 
leadership, for example, as you mentioned, in regard to our 
heroin epidemic here in Delaware County, for your bipartisan 
efforts on the National All Schedules Prescription Electronic 
Reporting Reauthorization Act, as well as what we will be 
talking about a little bit today, the sexual abuse and how you 
were sponsoring the Protecting Students from Sexual and Violent 
Predators Act, all which will be very important in Delaware 
County.
    Unfortunately, we are here in Delaware County and it is 
unfortunate to the extent that we probably are the third 
highest county in the State of Pennsylvania with our crime 
hitting 10,000 cases a year and 4,000 separate juvenile cases. 
So, we are, we believe, statistically speaking, we are third in 
the state. We have the largest District Attorney's Office after 
Philadelphia, Pittsburgh, and then we are third in regard to 
personnel in our efforts to combat crime.
    We are very fortunate, though, that we have advocacy groups 
that we partner with. Those advocacy groups, some of them are 
here today. Joyce Dale is here with us from Women Against Rape, 
and the Family Support Line that is running our Child Advocacy 
Center, Pat Krasinski, and our Domestic Abuse Project. These 
are victim advocacy agencies, nonprofit groups that work on a 
daily basis. They work each and every day to support crime 
victims. We in the District Attorney's Office are fortunate to 
be able to partner with them so that when we are prosecuting 
the case, we know that there is a victim advocate for each and 
every victim of a crime.
    To put it in, I guess, a form of a perspective, if you 
drove here today and you drove and you pulled into Villanova 
University in your vehicle, and when you leave these hearings 
today, if you went out and your car was stolen, that would 
affect you. It is going to seriously inconvenience you. You are 
a victim of a theft, an auto theft, and it is going to bother 
you.
    But one thing I am told by people that have their car 
stolen, although it has not been a devastating crime or a 
devastating impact, each one person that has had their car 
stolen will never forget the fact that they had their car 
stolen, and will never forget the fact that when they left 
Villanova at the Senate committee hearing, that they went out 
and their car was taken from them and the inconvenience that 
they suffered.
    Now, when you look at that with a simple theft crime and 
how you feel victimized, and now you compare that to an 
individual that has been sexually abused, or an individual that 
has been raped, an individual that has been beaten violently, 
these individual victims will never, ever forget. Not only will 
they never forget what happened, but they will never be the 
same when that crime occurs to them. For the rest of their 
life, they will never, ever be the same.
    So, it is critical to have our victim advocacy groups. 
These are groups of individuals that operate 24-hour hotlines 
that the victim can call, even sometimes before the police are 
involved. It is important, because not only do they encounter 
that victim, follow that victim through the criminal justice 
system, they provide services to that victim that no other 
entity can provide, for example, counseling, whether that 
counseling be support groups or psychological counseling. All 
of this is money that is very well spent.
    But, one of the complaints or concerns of all of these 
victims' rights advocacy groups is the fact that we do not have 
enough resources. We can always use more resources to help the 
victims here in Pennsylvania. They do an incredible job, and 
they make ends meet with what they have, but they need more 
resources.
    Recently, as you indicated, the Child Advocacy Center here 
in Delaware County was opened up and they are now still needing 
additional resources to help these children. Unfortunately, 
what we have seen when the Child Advocacy Center opened up is 
an onslaught of individuals that now are being interviewed. We 
have a couple of trained forensic interviewers. One is here 
with us today. However, we need more interviewers. We need more 
people ready and willing to help to deal with these impacts of 
child abuse, because the children deserve more. They deserve to 
be taken care of, into the criminal justice system.
    Many times when we thrust these young victims into a very 
difficult scenario, a situation where they are being placed 
into a courtroom and we are directly examining them, and then 
they are cross-examined, then it becomes difficult. The Child 
Advocacy Center lessens the impact of these individuals. So, it 
is very important.
    We are also happy here in Delaware County that the Internet 
Crimes Against Children Unit is housed right in Delaware 
County, in our Criminal Investigation Division, and that is 
funded by the Department of Justice. And, for many, many years, 
under the leadership of Congressman Meehan, we have been able 
to support that through federal funding and continue to go 
across the State of Pennsylvania, partner with affiliates to 
make sure that children are not being victimized additionally 
with Internet applications.
    So, when we look at different scenarios that occur, 
unfortunately, whether it is rape or it is child abuse or it is 
domestic violence, we are in the throes of all of this and it 
is important that we continue to be advocates of these victims, 
and it is important to make sure that the resources are 
available for all of our victims' groups.
    And, I thank you for having this opportunity to address 
you.
    [The prepared statement of Mr. Whelan follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Toomey. Thank you, D.A. Whelan. Thank you very much 
for your testimony. Your written testimony, I appreciate, as 
well, as I read that last night. That will be submitted for the 
record and I appreciate it.
    Next, Ms. Newman, thank you for joining us. Your written 
testimony also will be submitted to the record, but I invite 
you now to give us your oral testimony.

 STATEMENT OF ABBIE NEWMAN, R.N., EXECUTIVE DIRECTOR AND CHIEF 
   EXECUTIVE OFFICER, MISSION KIDS CHILD ADVOCACY CENTER OF 
                MONTGOMERY COUNTY, PENNSYLVANIA

    Ms. Newman. Good morning, Senator Toomey, and thank you. I 
do not think that my voice carries quite as far as Mr. 
Whelan's, so I am going to have to move closer to the mic over 
here. Thank you for the opportunity to testify here today on 
how we can continue working to help heal and obtain justice for 
Pennsylvania children who have been victims of sexual 
predators. You are a great leader on the issue of preventing 
child abuse and helping survivors of child abuse have access to 
all of the services they need to heal.
    My Child Advocacy Center, Mission Kids, is an accredited 
member of the National Children's Alliance. We proudly support 
your Protecting Students from Sexual and Violent Predators Act, 
which seeks to help keep child predators out of our nation's 
schools. The bill also bans ``passing the trash,'' that 
terrible practice where a school can knowingly help a predator 
get a job someplace else so they become another district or 
state's problem.
    We also appreciate your cosponsorship of the Justice for 
Victims of Trafficking Act, which President Obama just signed 
into law. This law gives law enforcement additional tools to 
find traffickers and increases fines and penalties and reserves 
the money to fund services for trafficking victims, and we very 
much appreciate that the first $2 million collected will go to 
Child Advocacy Centers to help fight this, as well.
    And, we are very excited to work with you on the Fairness 
for Crime Victims Fund Act. I would like to speak for a moment 
on how the Crime Victims Fund could help Child Advocacy 
Centers, which in shorthand are known as CACs, across 
Pennsylvania and the country by explaining the purpose of CACs 
and the difference that CACs make.
    CACs are designed to help victims of child abuse through 
every step of the justice system and to obtain medical and 
emotional care. The need for CACs is best explained by one 
adult survivor of child sexual abuse. This person saw an ad 
that we created and the ad simply said, ``Imagine living the 
worst day of your life over and over and over.'' When this 
person saw the ad, he came to me and he said, ``I saw that and 
what clicked in my mind is that it was actually two worst days, 
the day of the abuse followed by the day of the 
investigation.''
    Child sexual abuse is a crime of secrecy. Child abusers 
groom their victims and take months or years to make the child 
that increasing touch is acceptable behavior. By the time the 
abuse takes place, the child may feel that they are to blame, 
and since 50 percent of the time the abuser is a family member, 
and over 90 percent of the time it is someone in a close 
relationship to the family, who is going to believe if they 
tell anyway?
    The mission of the CAC is to achieve healing and justice 
for victims of child abuse. At a CAC, police, prosecutors, 
social workers, medical and mental health professionals, and 
child advocates work as a team to help that child at every 
step, from investigation through prosecution to receipt of 
specialized medical help and mental health counseling. The goal 
is to limit additional trauma to the child and ensure that the 
child receives specialized needed services as quickly as 
possible.
    In communities without a CAC, if a child is brave enough to 
report abuse, they are often required to retell and, thus, 
relive the abuse through multiple repetitive interviews with 
social workers, prosecutors, police, victims' services, 
medical, mental health counselors, and they do it in places 
like an emergency room or a police station. Think about it. 
When you are a kid, you go to the police station because you 
are a criminal or you are bad.
    The child does not understand that somebody there is trying 
to help them, and often, because the adults are not properly 
trained, they use techniques which are very much more like 
interrogations than something designed to actually get the 
child's story from the child. And, too often, the child is not 
receiving the needed medical attention and mental health 
counseling, and the result is that the very professionals that 
are trying to help this child end up retraumatizing them over 
and over again.
    There is another danger to this typical approach of 
multiple interviews, and I am sure that Mr. Whelan and every 
other prosecutor who has prosecuted a child abuse case has 
found it, which is that when you have slightly differing 
testimonies and slightly different statements, which happens 
whenever different people hear it--we all hear things 
differently--then you have different statements that a defense 
attorney can pick apart later on in a courtroom.
    If the case reaches trial, the child often does not have 
the strength to tell their story again, this time in a 
courtroom not dissimilar to where we are sitting, with a judge 
in a big black robe, 12 strangers, and the abuser staring at 
them, and then undergoing cross-examination by the defense 
attorney. The prosecution will often fall apart and the child 
and family are left in a much worse situation than before the 
abuse was even reported.
    CACs make the child the focal point. All of the 
professionals come to the child, as opposed to making the child 
travel to the separate agencies. The child's experience starts 
when they are greeted by a professional, child-friendly staff 
at a center, which often resembles a pediatrician's office or 
after-school environment to make them feel comfortable. The 
child is then interviewed by a highly trained forensic 
interviewer. Forensic interviewers are responsible for 
obtaining a statement in a manner that is developmentally 
appropriate, using open-ended and non-leading questions that 
will not taint the interview further.
    Members of the multi-disciplinary team, made up of police, 
social workers, and prosecutors, are able to observe the 
interview live, often on closed circuit TV in the next room, so 
that they can see the nuances of a live interview. They can see 
the child's reaction. They can see facial expressions. And then 
they get a chance to sit and talk with each other, because one 
of the best things about a CAC model are watching these 
professionals share information in that observation room, 
because prosecutors and police and social workers all come to 
this process from different backgrounds, and all of a sudden, 
things and statements that are black and white to them as 
individuals become gray as they talk to each other. All of the 
result is a better investigation for all of them and a better 
outcome for the child.
    Victim advocacy services are begun as soon as the child 
arrives and a relationship of trust begins to build. While the 
child speaks to the forensic interviewer, the family members 
meet with a trained advocate. Many families are so overwhelmed 
by what they are going through that they do not even understand 
the need at the time for mental health services for themselves 
and their child, and the advocate will help them to understand 
that need and set them up with the very specialized services 
that they need.
    Children often react in different ways to child abuse. The 
reactions can be severe, such as depression or suicide, or they 
could be very vague--bed wetting, becoming introverted, or 
promiscuity, a decline in grades, or an over-achiever. Or, they 
may not even--the symptoms may not manifest themselves until 
sometime later in life when some life event triggers what 
happened to them and their experience.
    Bluntly put, CACs need more funds. Every child victim 
desperately needs help, but due to funding shortfalls, that is 
not always possible. The prevalence of child abuse is 
staggering. At Mission Kids alone, which serves only Montgomery 
County, Pennsylvania, we have done over 2,300 forensic 
interviews in five years. Between ten to 20 percent of all 
children will be victims of child sexual abuse before the age 
of 18. In Pennsylvania, 23 counties have a CAC, but 44 do not, 
often due to inability to fund a CAC. Nationwide, 1,000 
counties have no access to CACs. Some counties are attempting 
to begin a center like Mission Kids or use services of CACs in 
nearby counties, and some still have no CAC services at all.
    Many of the nation's CACs have one or two victim advocates 
for 900 children. It is not uncommon to hear in Pennsylvania, 
as you noted, that there may be a wait time of three to six 
weeks for mental health services or two to four weeks for non-
emergency forensic interviews.
    Your Crime Victims Fund bill will make a huge difference to 
the abused children of Pennsylvania and across the country. 
Thank you for your help and caring about the most vulnerable 
victims in our society.
    [The prepared statement of Ms. Newman follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Toomey. Ms. Newman, thank you very much for your 
testimony.
    Next, we will hear from Ms. Moyer. Again, your written 
testimony will be included in the record and I welcome your 
oral testimony.

    STATEMENT OF DIANE MOYER, LEGAL DIRECTOR, PENNSYLVANIA 
                     COALITION AGAINST RAPE

    Ms. Moyer. Thank you, Senator, and thank you for being a 
champion on not just VOCA, but so many other issues that other 
elected officials find it either too difficult to deal with or 
they are interested in other things. But, you have been a 
champion for those who cannot speak for themselves and I 
appreciate that and will never forget your devotion to this 
issue.
    I am Diane Moyer and I want to thank Chairman Enzi, Ranking 
Member Sanders, and you, Senator Toomey, for the opportunity to 
testify here today. The Senator talked about what sounds like a 
lot of work, and was, but after 18 years, if I did not have a 
lot of marvelous things to say about having helped victims, 
then I would not be doing my job.
    I want to thank you, Senator Toomey, for your unwavering 
commitment to victims of sexual assault, and I do want to read 
this into the record.
    The Pennsylvania Coalition Against Rape is proud to support 
the Protecting Students from Sexual and Violent Predators Act, 
the bipartisan bill introduced by you and Senator Joe Manchin 
of West Virginia. The bill works to stop sexual predators from 
infiltrating our children's classrooms by requiring schools 
that receive federal funds to conduct background checks on 
employees. When you say that sentence out loud, it just seems 
so absurd that we do not do that already, when we trust our 
children with these teachers every single day. The bill also 
forbids a school from allowing a child molester to resign 
quietly and then find a new teaching job elsewhere, and that 
has happened nationwide.
    We thank you for cosponsoring the Justice for Victims of 
Trafficking Act. It is another issue that people are reluctant 
to talk about that happens all the time. And, I would like to 
acknowledge Villanova's own Shea Rhodes, who is here, for her 
work on trafficking, which is groundbreaking and necessary. The 
President recently signed that into law. Human trafficking is a 
modern form of slavery. Vulnerable people, often women and 
children, but also men and boys, are forced into prostitution, 
often raped hundreds or thousands of times. We appreciate your 
leadership in ensuring that traffickers are punished and that 
additional funds are available for victims of trafficking.
    We are also happy to have the opportunity these past months 
to work with you in drafting the Fairness for Crime Victims 
Act, which will ensure a steady increased funding stream--
sensible--from the Crime Victims Fund. While some of our 
elected officials voice support for victims of sexual assault, 
you have acted. While others join the occasional bill and then 
forget when they face any opposition, you have been unrelenting 
in fighting for victims of sexual assault, continuing to fight 
on both the Protecting Students Act and restoring fairness to 
the Crime Victims Fund, despite unbelievable opposition and 
obstacles.
    I would like to talk about some of the unmet needs of PCAR 
and its member programs, and I would also like to acknowledge 
the presence of some of the directors of our premier programs, 
Barbara Clark and her policy person, Julie Dugery, who does 
policy work in addition to being one of the best advocates in 
the state. Mary Onama and Barbara Clark, these women have 
dedicated their lives to victims of sexual assault, and I 
wanted to give them recognition. Thank you for indulging me in 
that.
    PCAR and our network of programs have consistently been 
good fiscal stewards of funding. However, as the identification 
of new issues and institutions addressed grows with our 
knowledge of victimization, the demands on services, education, 
and community awareness are stretched to the limit. We realize 
that outreach and messaging to different populations must occur 
in order to achieve our goal to eliminate sexual violence.
    As I have noted earlier, Senator Toomey has been a champion 
for victims of trafficking, who have an incredible continuum of 
needs that far exceeds most victims, including housing, 
addiction, alternatives to incarceration, trauma informed care, 
and accompaniment to medical and legal proceedings. We have 
always provided services to men, but appropriate outreach must 
ensure that these victims--that they will be treated with the 
dignity and care that they deserve.
    We have worked extensively with military victims, and our 
CEO, Delilah Rumburg, was a civilian co-chair of the Defense 
Task Force on Sexual Assault in the Military Services, and it 
is incredible what the military has been able to do in 
addressing the issue of sexual assault and as a leader for the 
rest of the nation. Ms. Rumburg was also on the Task Force on 
Child Protection in Pennsylvania as well as a member of the 
White House Advisory Council on Violence Against Women.
    Our leader has provided cutting-edge knowledge of sexual 
assault to these issues and has brought to the Commonwealth an 
urgency to treat the spectrum of victimization to programs in 
Pennsylvania and across the nation. Our programs have indicated 
just a few issues, the need for SANE Nurse programming, 
prevention education needed to reach boys and men--we know that 
it is different than the outreach that we have been doing for 
decades to women and girls and it is so important that every 
victim have access to services--collaboration with CACs and 
multi-disciplinary teams, counseling services under PREA, cyber 
crimes, prevention education at universities, storage, 
analysis, and victim notification about the testing of rape 
kits, transportation costs in our rural programs--people do not 
realize just how rural Pennsylvania is, that it is just not 
Pittsburgh and Philadelphia, we have quite a few counties in 
between--and the hiring and retention of qualified advocates.
    We know that you do not get rich doing this work, and you 
have to do it with a certain amount of heart and passion, but 
we believe that some of this Crime Victims Fund money should go 
to establish and maintain qualified staff and prevent turnover, 
because we need consistency in the treatment of these victims. 
And, we hope we can--I know you are not supposed to ask for 
money for salaries, but these people commit their lives to 
working with traumatized people every day, and I know they do 
at the CACs, as well. And, I know even though the District 
Attorneys may not admit it all the time, it is pretty intense 
for them, too.
    Finally, we have learned from providing services to victims 
that victims' compensation must be allowed to cover HIV 
medication to prevent this deadly disease. This medication is 
costly and usually not something that victims have the ability 
to pay for up front. Also, victims are often charged later for 
ambulance services that they did not call for, and imagine the 
trauma when the bills arrive for that service weeks after the 
assault. I urge the coverage of these costly but critical 
services for victims who through no fault of their own face 
financial retraumatization.
    We applaud the leadership of our Senator, Pennsylvania's 
Senator, in funding for crime victims and those brave advocates 
who provide services in our Commonwealth and across the 
country. I urge Congress to join Senator Toomey and his really 
marvelous staff in the swift and certain passage of this 
legislation.
    Thank you, sir.
    [The prepared statement of Ms. Moyer follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Toomey. Thanks very much, Ms. Moyer, for your 
testimony.
    Dr. Dierkers, your written testimony, as well, will be 
included in the record, and I invite you to share your oral 
testimony with us.

   STATEMENT OF PEG J. DIERKERS, PH.D., EXECUTIVE DIRECTOR, 
        PENNSYLVANIA COALITION AGAINST DOMESTIC VIOLENCE

    Ms. Dierkers. Good morning. I also would like to thank the 
committee leadership and you for conducting this hearing and 
for inviting me to represent the interests of our 60 
Pennsylvania Domestic Violence Centers and the thousands of 
victims and children they serve every day.
    At this time, I would like to recognize the hard working 
and dedicated advocates who have joined us here today: Mary Kay 
Bernosky from Berks County Women in Crisis; Maria Macaluso, 
Women's Center of Montgomery County; Linda Thomas and Lauren 
Bucksner from A Woman's Place in Bucks County; Sally Casey, 
Schuylkill Women in Crisis; Beth Sturman, Laurel House, 
Montgomery County; Elise Scioscia, Director of Public Policy at 
Women Against Abuse in Philadelphia; and Kristen Wooley at 
Turning Point of Lehigh Valley.
    PCADV is an alliance of independent, private, nonprofit 
organizations that provide services and advocacy on behalf of 
victims of domestic violence and their minor children. The 
coalition was established in 1976 and is actually the oldest 
statewide domestic violence coalition in the nation. And since 
then, we have helped each state in the union establish their 
own state coalition, and now the six U.S. territories have 
State Domestic Violence Coalitions, as well.
    We have grown over our 40 years of service to a membership 
of 60 centers that provide services to every single one of the 
67 counties in Pennsylvania. Our member organizations are 
required to provide a range of holistic services, including 
emergency hotlines, shelters, counseling programs, safe home 
networks, legal and medical advocacy, and transitional housing, 
not only for the direct victim of abuse, but also their 
children. During the last fiscal year, as you said, our centers 
helped more than 85,000 Pennsylvanians, including over 7,000 
children.
    Unfortunately, 141 people lost their lives due to domestic 
violence homicide in 2014, 60 percent by the use of a gun, and 
we must do more to keep guns out of the hands of abusers.
    The Victims of Crime Act funds provide vital resources for 
both the victim and for the people trying to assist them, as 
you said, with no additional burden to taxpayers. In 
Pennsylvania, they are used for a wide range of critical 
services for victims of domestic violence, including crisis 
counseling, emergency legal advocacy, shelter and transitional 
housing, emergency financial assistance, and emergency hotline 
response.
    PCADV strongly urges the Pennsylvania Commission on Crime 
and Delinquency, who disburses these funds to our various 
counties to continue funding for these basic services that I 
just described while also considering emergency issues and 
unmet needs.
    I want to amplify the emerging issues that Diane Moyer has 
mentioned, the first being the issue of human trafficking, both 
nationally and at the state level. The General Assembly signed 
Act 105 into law during this last legislative session, and 
there is a great need in Pennsylvania for us to create a model 
of service and to train law enforcement as well as victim 
service providers to be able to help these minor victims and 
adult victims of human trafficking, and they have very unique 
needs that will require many more resources.
    Again, as Diane mentioned, we are more and more aware that 
serving male victims of crime, especially in cases of domestic 
violence and sexual assault, call for additional resources, 
both for staffing as well as to outreach men and help them 
overcome the social stigma and the barriers that they face.
    Regarding unmet needs, the Coalition and its 60 centers 
have been forced to live with less as a result of nearly a 
decade of flatlined funding by the state, as well as the loss 
of some federal funds, as well. As a result, we often cannot 
meet the growing requests for services from our communities. 
Last year alone, our 60 Domestic Violence Centers reported 
6,152 unmet requests for shelter due to the increased demand 
from increased public awareness about the issue of domestic 
violence and the inadequate resources to serve these victims.
    Every year, our national network participates in a one- day 
census, the results of which have just been published for 2014, 
and they are staggering. In one day in Pennsylvania, our 
network of 60 centers helped 2,498 victims of domestic 
violence, including 713 children. Of these services provided in 
that one day, 80 percent of the victims received emergency 
shelter, 80 percent received legal advocacy. However, in that 
same day in Pennsylvania, there were 252 unmet requests for 
services which could not be provided because programs, although 
they have the expertise, did not have the resources to meet the 
need.
    And, although our advocates do not always know what happens 
to victims who are turned away, and we do everything we can not 
to turn them away, our centers report that 60 percent of 
domestic violence victims for whom there are no services that 
day return to their abuser. Thirty-two percent become homeless, 
and eight percent are forced to live in their cars in order to 
escape the abuse. These numbers provide the realistic answer to 
the too common and unfortunate question of, ``Why doesn't she 
just leave?''
    Releasing additional VOCA funds can do so much to ensure 
that there will be adequately funded services available to help 
each time the victim has the courage to seek help.
    When there is an unmet need in the community, PCADV 
recommends that VOCA funds be used first to expand existing 
capacity before new organizations are developed. It is an 
efficient strategy that will reduce overhead in communities 
while investing in agencies with a proven track record of 
success, many of whom are here with us today.
    We also hope that VOCA funds will support services that are 
broad and holistic, that ensure confidentiality and a sole 
allegiance to the victim.
    We would also hope that VOCA funds can continue to be used 
to provide services regardless of whether a victim chooses to 
involve the criminal justice system. For domestic violence 
victims, this is especially important, as most of the justice 
they receive actually comes through the civil system and not 
always through the criminal system. These preferences empower 
and protect victims while honoring them as experts as to the 
safest way to support them in a journey to become survivor.
    We do recognize, also, the national need for a designated 
Tribal funding stream, and although Pennsylvania is not home to 
Tribal nations, many indigenous people live in our 
Commonwealth. PCADV supports the funding for Tribes in light of 
our work to overcome oppression for all people.
    As I bring my testimony to a close, I would like to talk 
about one more service, one of the most requested services of 
domestic violence victims and one that we hope can be expanded 
with the expanded resources of the Victims Crime Act. Whatever 
data point we look at, legal services is one of the most 
requested supports by survivors of domestic violence. The 
tactics of abuse create safety, economic, and child safety 
issues that can only be corrected with knowledgeable legal 
assistance and the help of the courts. And, again, as I said, 
often, it is the civil court system.
    Yet, we only have the resources in Pennsylvania to operate 
legal services in 15 counties, leaving victims and their 
children in 52 counties without help. Our 15 civil legal 
representation sites helped more than 4,000 victims last year 
at a low cost of $317 per case. Impact and value like this is 
rarely seen in the human services system.
    One of our Domestic Violence Centers that are here today, 
Women Against Abuse, was able to provide legal assistance to a 
survivor named Kendra in a custody case against her child's 
father. Before Kendra came to Women Against Abuse, she already 
had a protection-only order against her abuser, Mike, for a 
long history of abuse. Mike started arguing during a visit with 
the child and Mike put Kendra in a chokehold and wrestled her 
to the ground with one arm while holding their three-month-old 
child. Kendra was eventually able to get up and run into the 
bedroom to call 911. The police arrived on the scene of assault 
and arrested Mike.
    Kendra was shortly thereafter connected with Women Against 
Abuse, where an attorney in the civil legal project was able to 
assist in modifying her protection order to include no contact, 
and importantly, to file an expedited custody order to also 
help the child escape abuse, and Kendra was granted immediate 
primary custody of her baby. Women Against Abuse continues to 
help Kendra, because custody cases are very long. This is not a 
legal need that can be performed typically with pro bono 
services. And, Kendra has remained safe--Kendra and her child 
have remained safe from her abuser.
    So, we, too, urge Congress to pass your Fairness for 
Victims Act, S. 1495, and to disburse the Crime Victims Fund 
with the average of the past three years' deposit. With that 
ample balance that you described in the Crime Victims Fund, now 
is the time to create a stable and sustainable funding formula 
and to release that additional money for the purpose Congress 
intended and for which it has been collected.
    Again, I want to thank you for the championing of many 
issues, including this one, and your support of victims.
    [The prepared statement of Ms. Dierkers follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Toomey. Thank you very much, Dr. Dierkers.
    I would like for my first question to ask Ms. Newman and 
D.A. Whelan both to give their perspective. It seems to me, and 
having toured a number of the CACs, there are multiple 
objectives that you are trying to accomplish when a child is 
brought in for an interview. You want to determine what type of 
treatment this child might need, what kind of harm has been 
sustained. There is the interest in trying to protect the child 
from future abuse of whatever kind. And, of course, there is 
the interest in prosecuting the perpetrator. These are very, 
very different objectives and different goals, and as I 
understand it, you would try to achieve progress on all of 
these in one place through one or a brief number of interviews.
    So, my question to Mr. Whelan, who comes at this from a 
prosecutorial background, and Ms. Newman, who comes from a 
nursing background, very, very different backgrounds with a 
very different sort of focus, how does it work? How well does 
it work when you try to achieve these very different objectives 
in the same place at the same time?
    Mr. Whelan. Well, certainly, from the prosecutor's 
standpoint, we want to take dangerous criminals off the street. 
We want to take child abusers off of the street and prevent 
them from re-offending to prevent the crime from occurring 
again. But, we also have to realize the compassion associated 
with these type of crimes, and the compassion is dealing with 
the victims of these type of crimes, whether they are children 
or adults.
    That is why we have been advocates of these centers. These 
Child Advocacy Centers are important, because they are 
important because they protect the child. As Ms. Newman alluded 
to during her comments, she had indicated--and this is what we 
are experiencing--if the child is a victim, that child then 
reports it typically to the parent or trusted adult who call 
the police. The police come in and then the child tells their 
story, exactly what occurred, to the police. Then they may go 
to the hospital, tell their story again. And then we have 
detectives interviewing the child again, and it goes on and on 
with the child being interviewed multiple times.
    The problem is, as was pointed out by Ms. Newman, every 
time the child deviates, even slightly deviates, from what they 
explained to the previous provider, then the defense attorney 
in the criminal case will try to make the child sound like they 
are lying through cross-examination.
    Senator Toomey. And, just to be clear, the deviation might 
be just remembering things one time that were forgotten a 
different times and that sort of deviation.
    Mr. Whelan. Correct, or remembering more than they did 
before.
    Senator Toomey. Right.
    Mr. Whelan. Now, all of the sudden, they remembered more, 
and all of the sudden they are being faulted for remembering 
more, or maybe the first interviewer did not conduct a thorough 
interview and now the defense attorney is going to twist--and 
they are doing their job under the Constitution, but they are 
going to twist the words of the child and they are going to try 
to convince the jury who sits up in these courtrooms that the 
child is not being sincere, and in those particular cases, our 
burden of proof is beyond a reasonable doubt, and in those type 
of cases, many times the jurors have doubt and those 
individuals are acquitted. Then they go back to re-offending, 
typically, and we are back to square one.
    Where Child Advocacy Centers bring a multi-disciplined 
approach and bring all together the disciplines of that 
children, they bring in the psychology, the CYS worker, the 
police officer, the detective, the Assistant District Attorney. 
The child is interviewed. The interview is taped and then the 
taped interview is turned over to the defense attorney. And 
what we have found, statistically speaking, in those 
jurisdictions that have Child Advocacy Centers, our 
prosecutions are much more successful.
    Senator Toomey. So, I think that is a really, really 
important point. So, you are arguing that the existence of the 
Child Advocacy Center, the process that they follow, that 
actually leads to a higher likelihood of getting a successful 
prosecution of the perpetrator?
    Mr. Whelan. Which is important, but equally important is 
that it protects the child--
    Senator Toomey. Right.
    Mr. Whelan. --from being further victimized in the criminal 
justice system.
    Senator Toomey. Right. Well, and putting perpetrators 
behind bars makes it impossible for them to victimize the next 
child, so--
    Mr. Whelan. Correct, Senator.
    Senator Toomey. --that is really important.
    Ms. Newman, now, your background is as a pediatric nurse.
    Ms. Newman. Yes.
    Senator Toomey. In your experience, how has this process 
worked for individual children that you have seen in your 
facility?
    Ms. Newman. Let me back up a minute and say that because 
the CAC is neutral in fact finding, when a case comes in--when 
a child comes in for an interview--when the interviewer does 
the forensic interview, conducts it, there is no pre-set 
determination that something had to have happened. The 
questions are specifically asked in age- appropriate, open-
ended fashion so that the child tells the story, if indeed 
there is a story to tell, in their own words. And, nobody has a 
better day than when the team sits in the room and watches that 
interview and the child says in a very credible fashion, 
without anybody leading them on, that there was a mistake, that 
somebody did not see what they thought that they saw, and there 
is no further investigation.
    But, then you have all those other cases that come in and 
you have a child that has been victimized, no matter how 
slight. It could just be something--and I do not want to get 
too graphic, but something just over the clothes to something 
much more brutal and horrible. And, in all of those cases, that 
is when the CAC works really well.
    As D.A. Whelan said, you have one statement. It is 
recorded. There is no question that it is not leading. What we 
often see, and I think Mr. Whelan may be able to confirm this, 
is that what happens is that there are plea bargains that 
before may never have occurred because you have a defense 
attorney and a defendant, you cannot prove anything, it is just 
a child that gave that statement, and the experience in 
Montgomery County has been that the district attorney will hand 
that defense attorney the DVD and say, ``Why do you not go 
watch that,'' and lo and behold, not long afterwards, they come 
forward and have a plea bargain struck, and that is a great 
day, too, because then that perpetrator is off the street and 
that child never has to enter a courtroom, never has to go 
through that experience again.
    Also, because of the CAC set-up, what you have are victim 
and family advocates and referrals to specialized medical and 
mental health treatment, and that is really important, because 
the dynamics of child abuse are very different from adult rape 
and domestic violence. As I said in my statement, child abusers 
put themselves in positions of being close to children, and 
most of the time, it is not a sudden act of violence. It takes 
place over time. The abusers take the time to groom their 
victims. They start with touch. I remember from the Jerry 
Sandusky testimony, and I know people, especially in 
Pennsylvania, are tired of going back to that, but one of the 
witnesses said, ``You know, you knew when you got into a car 
with Coach Sandusky that his hand was going to be on your 
thigh.'' That is how abusers work, slowly.
    And, in the 50 percent of the time that it involves a 
family member, the dynamics of the family become so skewed. The 
family often would rather not say what is going on, because if 
it is a mother's father or brother or husband or significant 
other, as it may be, who wants to see that that person who is 
so close to you is really a monster who is doing this to their 
child. And, there is often the mistaken thought that we can 
handle this at home. We can do this as a family and just keep 
the perpetrator away from the child.
    But, number one, that often does not happen, because they 
cannot do that. And, number, two, it just leaves this person 
out there, as in the recent news reports about the Duggar 
family, where the older son--and I am just reading from the 
papers here--was brought back into the home and abused 
additional children, if those allegations are true. But, that 
would certainly fit the pattern of what we see.
    Specialized mental health treatment is important for this. 
It is evidence-based. It is not just going to any old 
counselor, so that is important. Specialized medical treatment 
with pediatric sexual assault nurse examiners are very 
important for these children.
    Sometimes for older children--and I will wrap up here, I 
know I am going on--it is important for them to have this 
medical examination just so they can be told, you are okay. 
Nobody can see what happened to you unless you choose to share 
it with somebody. That is often as important as anything else 
that we can possibly do at a Child Advocacy Center. Thank you.
    Senator Toomey. Thank you very much.
    Now, let me go right to one of the arguments that I have 
heard from people who are not supporting my legislation, which 
is, as you know, designed to increase the amount of funds that 
are distributed to the various crime victims' groups, and maybe 
Ms. Moyer could lead off, but I would like to ask each of you 
to address this, and this argument is, well, it would be a big 
bump-up in funds and you really probably cannot spend it very 
well. So, maybe you could address that and share with us for 
the record exactly how you would put these resources to work if 
you had the knowledge that you had a sustained funding level at 
this higher level that would be commensurate to the amount of 
money that is actually going into the fund each year.
    Ms. Moyer. Well, first of all, Senator, thank you for the 
question, because I believe we debunk that myth. I think there 
is a special Internet place where they have things like that, 
that, oh, those people could not possibly spend that money. Of 
course, we can. We have executive directors taking pagers home 
and responding to two o'clock in the morning calls instead of 
doing community awareness and managing an organization.
    And, let me just--I will leave you with one situation that 
particularly moved me, although, as you can tell, this is my 
passion. Women Organized Against Rape in Philadelphia, they 
were under construction, and because of a lack of funds, they 
were unable to do individual child counseling and they had to 
do group counseling. And, it was in the reception area. The 
place was under construction. And, all these kids were sitting 
and standing and laughing and playing, as kids are wont to do, 
and the construction workers came in and said, ``Gee, I did not 
realize you were running a day care center.'' And, the ED 
explained to them that this, in fact, was a group of children 
who had been sexually abused. One of the children was a four-
year-old who would live with a colostomy bag for the rest of 
her life. And, I apologize for being graphic, but sometimes I 
think we need to be, because these children are living their 
lives with this constant reminder, physical or emotional, and 
there is no way to undo that.
    I appreciate our collegiality with CACs and our dedication 
of our district attorneys and our sister coalition in child 
abuse cases, but if you have a group of children acting as if 
it were an ordinary day at a day care center, and if you could 
see the rooms where play therapy happens, it looks like a day 
care center, but it is a place where children who have been 
raped by monsters go to heal, I think there would be no doubt 
in your mind that we could find good use for this funding.
    We need more prevention educators. We need outreach to men 
and boys, and in an intentional way. Prevention is no longer a 
dirty word. I think we realize that it does work. And, as a law 
enforcement officer once said to me, ``Diane, these are one-man 
crime waves,'' and we need all these resources to get these 
monsters off the street, and with your help, Senator, I think 
we can do that very easily.
    Senator Toomey. Thank you.
    Dr. Dierkers, would you care to address the question.
    Ms. Dierkers. Yes. As I mentioned in my testimony, housing 
is a particular concern for domestic violence victims and we 
need various forms of housing. Often, economic abuse is a 
common tactic used, and it may take a survivor some time to 
recover economically and be able to support themselves and 
their children. Legal services, because when children are in a 
domestic violence home, often, the children are being abused, 
and we know from research now, longitudinal research, the 
children who even witness abuse will sustain life-long impacts 
if there is not support, help, and healing for them.
    We were really gearing up in terms of our children's 
services, because, as I mentioned, we do see thousands and 
thousands of children through our Domestic Violence Centers 
every year. We were just gearing up specialized services when 
the recession hit. So, that is an area that we would definitely 
dedicate money to, as well, as well as legal services.
    Senator Toomey. And, Ms. Newman, my understanding is the 
large majority of Pennsylvania counties do not have their own 
Child Advocacy Center, so victims have a long way to go to get 
to the nearest one in many cases. I assume additional funding 
would help lead to the development of additional facilities, is 
that true?
    Ms. Newman. Absolutely. In Pennsylvania, there are only 23 
counties that actually have Child Advocacy Centers. the 
Pennsylvania Task Force on Child Protection in 2012 said that 
the number one priority for the safety of Pennsylvania's 
children from sexual predators should be to have a Child 
Advocacy Center, and they said within two hours of every child. 
District Attorney David Heckler, who chaired that task force, 
said that had there been a CAC in Centre County, again, at the 
time of Jerry Sandusky, that he would have been stopped after 
victim number one. So, how many children would that have saved 
who came forward? We do not even know how many never came 
forward.
    It costs money for these centers. Two hours is a long way. 
That is a long time, especially if you have parents that are 
taking off from work that have to go, that may have to use 
public transportation to get there. They may have other 
children that they need to bring with them to the center. At 
the State Chapter of CACs, we would like to see that brought 
down a lot closer to an hour, and even that is a long way, 
because, again, you have children. They get tired. They are 
already traumatized. The family is already traumatized. We do 
not necessarily have to have a CAC in every county, as was 
alluded to. There are a lot of rural areas in Pennsylvania. 
But, certainly, regional centers need to be developed and built 
to help all of the children have access. Thank you.
    Senator Toomey. And just so that everybody understands, you 
folks are not dealing with abstractions. You are dealing with 
real human beings, people who have been victimized. And Dr. 
Dierkers gave a great example of a woman named Kendra and her 
circumstances.
    Ms. Moyer or Ms. Newman, is there maybe a brief story of a 
particular victim that you would like to share with us so that 
we can sort of see exactly the kind of person and the 
circumstances in which the work that you do is so helpful?
    Ms. Newman. Do you mind if I go first?
    Ms. Moyer. No, not at all.
    Ms. Newman. Thank you. I am just--I am particularly 
passionate about one story. He is actually the inspiration and 
the reason that Montgomery County has a CAC. His name is Sasha. 
He grew up on the Main Line, very close to where we are sitting 
right now. Child abuse knows no economic boundary, zip code, or 
religion.
    When he was a young child, he was in an intact family, 
mother, father, younger sister. Uncles came down to visit, 
father's brothers, one of whom was a very well known cantor up 
on the Upper East Side of New York in a large synagogue there. 
For people that may not be familiar, a cantor is a cantor rabbi 
in the Jewish faith.
    Sasha went from being a very normal child to, as his mother 
describes, one that she had to try to keep alive, because he 
suddenly walked around with underwear over his head and a knife 
to his throat, tried to jump out of moving cars while she was 
driving. She brought him to numerous therapists who had no idea 
what was going on. And, as Sasha tells the story now as an 
adult, he said he was finally able to disclose to one of the 
many psychiatrists that they were bringing him to when he saw 
his uncle go in and attempt to abuse his younger sister. And 
that was what finally allowed him to disclose the terrible rape 
that had been happening to him over and over and over again.
    Sasha's mother, when she told her husband about it, his 
response was, ``I probably should have realized what was going 
on because they did the same thing to me when I was a child.'' 
Again, the dynamics of intra-familial sexual abuse. It can be 
generational, as well.
    They were brave enough to report it. The mother went to 
Risa Vetri Ferman, our current District Attorney in Montgomery 
County. She was an Assistant District Attorney at that time. 
Ten years, from when Sasha was seven until he was 17 years old, 
before that case finally ended with a low plea deal for the 
cantor.
    I remember before I was ever involved with this movement 
watching on the 11 p.m. news, busing in supporters of the 
cantor from the Upper East Side of New York to say to the 
District Attorney of Montgomery County, ``How dare you 
prosecute our clergy, our member, our leader.''
    Sasha went to college. He moved out to Montana to get to 
this area. And, I have had a lot of memorable days at Mission 
Kids. I think that one of the ones that sticks out most in my 
mind is the day that Risa sent him to Mission kids to see, 
because of what he had been through, what developed. And he 
came into the center and I saw this rough, just graduated 
college student melt back into a little boy, and he looked at 
the stuffed animals around the room and he said, ``Oh, my God, 
I would have loved this place. You feel like you are enveloped 
by the stuffed animals in here.''
    And we had a bowl of just snacks on the table, pre- wrapped 
snacks for the kids when they came in. And he said, ``Oh, those 
are great. I am so glad you do not have vending machines.'' 
And, I was really surprised, and I said, vending machine? Why? 
It never occurred to me one way or the other, but why? And, he 
said, ``Because I cannot tell you how many dozens of times I 
was at police stations and the District Attorney's office and I 
was there for hours and I was hungry and the only thing to eat 
was in the vending machine.''
    That is my story. Thank you.
    Senator Toomey. Thank you.
    Ms. Moyer.
    Ms. Moyer. Yes. I would like to talk about--we have not 
talked about the campus sexual assault, and I am happy to say 
that we are addressing that more fully, as well. But, we had a 
victim and the campus judicial hearing did not go well. But, 
she knew that she had a place to go. What I always tell our 
advocates is that we do not make promises we cannot keep. We 
have confidential services, but we have a duty to report, but 
we always believe our victims.
    The only respite this individual had from what was a 
botched--clearly, a botched hearing at the campus level, and it 
was very problematic. The District Attorney and I, on the side 
of right, of course, were trying to help this victim, but there 
was a lot of push-back from the campus. But, what the victim 
did have was belief in her story and the offer of safety and 
services, trauma-informed, and the courage to go on with her 
life and move to another campus and successfully graduated 
because she did not get the justice that she deserved, and that 
does happen to victims quite a bit. But, what we do give them 
is belief, help, hope, and healing, and that is what every 
victim deserves.
    Senator Toomey. Thank you very much.
    We are getting to the end of our allotted time here, and I 
just wanted to make sure if any of our witnesses had a final 
point they wanted to make that they felt we did not have a 
chance to develop earlier, this would be a good time. Does 
anybody have any last points?
    Mr. Whelan. No, just to thank you for hosting this event 
today, Senator.
    Senator Toomey. Well, thank you.
    So, let me--really, I want to thank each of our witnesses 
very much. This is very, very helpful and powerful testimony 
and it will help us to make the case for why we need to do the 
right thing, stop the dishonest budgetary gimmicks and start 
allocating the resources that ought to be going to crime 
victims' advocacy groups.
    I want to thank people who are in the audience. I know many 
of the people here are working in the front lines, helping to 
support and help the victims of all kinds of crime. So, I 
appreciate the work that you do day in and day out. I know how 
hard that work is and I am grateful to you for being here.
    I do, once again, want to thank Villanova Law School for 
making this wonderful facility available to us and being kind 
enough to invite us in to have this hearing.
    And, I just want to assure everybody, this is a high 
priority of mine, and as a member of the Budget Committee, I 
will be able to ensure that we take this up in the committee. I 
am confident that we can pass the legislation in committee, and 
that will give us a chance to bring it to the Senate floor. My 
hope is that this year, we will find a vehicle that will allow 
us to enact this legislation and provide the certainty of 
funding going forward at this much higher level that is, after 
all, only commensurate to the amount of money that criminals 
are putting into this fund every year.
    So, I really thank you for all your help. I am going to 
need to continue to ask you to help and keep the pressure on my 
colleagues so that we can get this done. But, I am confident we 
will get this across the goal line.
    So, thank you very much, and with that, the hearing is 
adjourned.
    [Whereupon, at 11:12 a.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


 FIELD HEARING ON TAX-RELATED IDENTITY THEFT AND FRAUDULENT TAX RETURNS

                       Wednesday, August 26, 2015

                                        U.S. Senate
                     Committee on the Budget Manchester, NH
    The committee met, pursuant to notice, at 2:00 p.m., in 
Room 201, UNH Manchester Campus, 88 Commercial Street, Hon. 
Kelly Ayotte presiding.
    Present: Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I just wanted to welcome all of you here 
today. My name is Senator Kelly Ayotte, and I'm very glad to 
have the opportunity today to hold an important field hearing.
    I serve on the Budget Committee in the Senate, and one of 
the important topics that we have dealt with not only on the 
Budget Committee but, another committee I serve on, the 
Homeland Security and Government Oversight Committee, is tax-
related identity theft and fraudulent tax returns.
    So I'm going to call this hearing to order.
    For my constituents that are here today, this will be part 
of the official Senate record. We're having this as a field 
hearing, but it will be part of the Budget Committee's official 
record. So that's why you see me here with the gavel in this 
setting, and also I've got some staff members here from 
Washington, the Budget Committee, as well as my own staff.
    So I'm going to call this hearing of the Budget Committee 
to order.
    We have on the first panel two witnesses with us, Ms. Lori 
Weeks from Strafford, New Hampshire; and also Mr. John Walker, 
from New Hampshire as well.
    I will begin this hearing by giving an opening statement, 
and then I'm going to turn to our witnesses to provide us with 
information and to give their opening statements.
    I want to thank all of you for joining us today for this 
important field hearing of the Senate Budget Committee. I would 
like to thank all the witnesses on both panels that you'll hear 
today for their time and for their willingness to participate 
in this important discussion.
    We're here today to discuss a growing problem not only in 
New Hampshire but across the country, and that's tax-related 
identity theft. Tax-related identity theft is a very serious 
problem that's growing, unfortunately, at epidemic proportions. 
According to the Treasury Inspector General for Tax 
Administration, about 2.4 million taxpayers' names or Social 
Security numbers were used to file fraudulent tax returns in 
2013, when this data was looked at. That's a 10-fold increase 
from 2010, and we've seen further activity in 2014 and beyond.
    With major data breaches occurring more frequently, most 
recently with the Office of Personnel Management, when millions 
of people who have gone through a Federal background check had 
their personal information breached. I'm concerned that we will 
see additional cases of tax fraud that impact even more 
taxpayers in the future.
    Filing a tax return should be easy, but for an increasing 
number of taxpayers, they find themselves victims of identity 
theft. This is too often the beginning of a frustrating and 
burdensome process that can take even months or years to 
resolve. These innocent taxpayers frequently find themselves in 
a confusing and frustrating maze of bureaucratic red tape. I've 
heard stories from my constituents, some of whom are here today 
and some of whom couldn't be here today, who have been caught 
up in this maze of frustration.
    Not only do taxpayers have to spend too often countless 
hours collecting and submitting the necessary documents to 
prove their identities, they're often given conflicting 
instructions and inconsistent messages from the IRS.
    Or worse, they've had a lot of difficulties reaching the 
IRS. Instead of focusing on regaining and safeguarding their 
personal identities, tax fraud victims spend hours simply 
trying to prove who they are actually to the IRS, and that's 
wrong. I'm very glad to have the IRS Commissioner here today. 
We must do more to address this issue and better assist 
taxpayers who are facing this problem.
    One of those taxpayers we have here today is Lori Weeks 
from Strafford, New Hampshire, and I want to thank Lori for her 
willingness to share her story today and for her courage. Lori 
has endured something that no mother should ever have to 
experience, and that's the loss of her daughter, Madison, in a 
tragic car accident. That heartbreaking loss was compounded 
when Lori's her husband learned that Maddi's identity had been 
stolen and used to file three fraudulent tax returns.
    But when Lori asked the IRS for copies of the fraudulent 
returns so that she could find out how much of her family's 
personal information was compromised, the IRS said it could not 
provide her with information or a copy of the fraudulent tax 
return, citing privacy concerns.
    Tax fraud victims shouldn't be left in the dark regarding 
the full extent of what personal information was stolen, and 
the least the IRS can do is to provide them with copies of the 
fraudulent returns so that they can understand how their 
information was manipulated and used fraudulently.
    On behalf of Lori and other New Hampshire families I wrote 
to Commissioner Koskinen--who is here with us today, and he 
will be testifying on the second panel--this spring and asked 
the IRS to change its policy and to provide victims of tax 
fraud with copies of fraudulent returns filed on behalf of the 
tax fraud victim.
    In response, the Commissioner has agreed to establish a 
process in which identity theft victims can obtain copies of 
fraudulent returns, and I look forward to hearing an update on 
where that policy change is today. I thank the Commissioner for 
agreeing to change that policy, and I certainly urge the agency 
to get this process in place as soon as possible.
    I've also heard from several tax fraud victims in New 
Hampshire who continue to struggle to get their refunds from 
the IRS, even after having proven their identities to the 
agency. One constituent from Bath told me that the IRS told him 
that he should receive a refund within six weeks of proving his 
identity. When eight weeks passed without any progress, he 
called the IRS again to follow up. After waiting on hold for 45 
minutes, this individual was told that processing his case 
would take up to six months.
    The IRS' mission is to provide America's taxpayers top-
quality service by helping them understand and meet their tax 
responsibilities, and by applying the tax law with integrity 
and fairness to all. However, these examples demonstrate the 
IRS is falling short of fulfilling this mission.
    In her latest report to Congress, Nina Olson, the Taxpayer 
Advocate, notes that the IRS continues to view itself as an 
enforcement agency first and a service agency second. I know 
the IRS is taking some important steps to reduce fraud that 
have been recently announced. I appreciate those efforts, and 
we want to hear about those efforts today, including enhanced 
collaboration with representatives of tax preparation and 
software firms and other tax industry partners, and a new 
policy to earlier match W-2 information received from employees 
and employers. However, it is clear that much more must be done 
to prevent fraud from occurring in the first place to make sure 
that people aren't victims of identity theft and to better help 
victims when fraud does occur.
    Congress can also play a very important role to the extent 
that legislative fixes are needed to reduce fraud. Earlier this 
year I worked with Senator Ron Johnson from Wisconsin, who is 
the chairman of the Homeland Security Committee, and Mark 
Warner of Virginia to help introduce the bipartisan Social 
Security Identity Defense Act of 2015. This proposed 
legislation would require the IRS to notify an individual if it 
has reason to believe that someone's Social Security number has 
been fraudulently used. So notifying victims is incredibly 
important. It also requires the IRS notify law enforcement, and 
requires that the Social Security Administration to notify 
employers who submit fraudulently used Social Security numbers. 
This bill adds civil penalties and extends jail time for those 
who fraudulently use an individual's Social Security number.
    The purpose of our hearing today is to take a critical look 
at how the IRS handles tax-related identity theft cases, with 
the goal of identifying necessary steps the IRS must take to 
improve its response to this growing problem.
    I want to welcome our first panel, Lori Weeks of Strafford, 
and John Walker, a tax preparer based in Concord, who will 
share his experience working on tax-related identity theft 
cases for his clients.
    During the second panel we will, hear from the IRS 
Commissioner, John Koskinen. We will also hear from the 
Inspector General, J. Russell George, from the Treasury 
Department. We appreciate the Inspector General being here 
today. We will also hear from Mr. Christopher Lee of the 
National Taxpayer Advocate Service, to examine the IRS' 
administrative practices and look at ways on how we can improve 
service to taxpayers and make sure that we're more responsive 
and can take steps that need to be taken to prevent identity 
theft in the first place. 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Again, I want to thank all of you for being here today, and 
now I would like to call on our first witness.
    Again, I want to thank Lori Weeks for being here to offer 
her opening statement.
    Ms. Weeks.

STATEMENT OF LORI WEEKS, STRAFFORD, TAX-RELATED IDENTITY THEFT 
                             VICTIM

    Ms. Weeks. Good afternoon. My name is Lori Weeks, or, as I 
prefer to be referred to, Maddi's mama. This is my daughter, 
Madison Charlotte Weeks. Madison was born on June 23, 2006. She 
was our first child. Through the years, Madison grew into a 
precocious little thing with a brilliant mind and an empathy 
for people that is rarely seen in a child her age. That empathy 
pushed her to continuously thank each and every veteran we 
passed on the street, to raise money for the fight against 
childhood cancer and to volunteer for the March of Dimes, the 
organization that helped save her baby sister when she was born 
prematurely.
    Like I said before, Madison had a brilliant mind and in 2nd 
grade tested at an end of 5th grade reading, writing, math and 
science level. We were so proud but not surprised. Madison was 
a talented dancer and was well loved by every person she had 
ever met.
    Madison was a Girl Scout, an artist, an animal lover, a big 
sister, a best friend, my best friend. She had dreamed of 
opening a veterinarian's office when she grew up that offered 
free care to those who could not afford it.
    On February 19, 2014, on our way to dance class, in the 
middle of her 6th year of dancing, we hit black ice. I hit 
black ice. We went off the road. We were okay, but in the blink 
of an eye another motorist, distracted, did not see our vehicle 
and did not slow down. She hit our car and took the life of our 
precious daughter. Our lives are irreparably destroyed.
    In March of 2015, my husband and I prepared to file our 
taxes. As we walked in I was having trouble breathing. Tears 
were already welling in my eyes. As we sat and reviewed our tax 
documents, I could not stop crying. This would be the last 
time, legally, on paper, that I could say I am the mother of 
two daughters. I finished up this painful process and later 
that day my husband went to sign our documents. This is when we 
found out. What we had left, that fleeting moment in time, had 
been stolen. Madison's identity had been stolen and someone 
else had claimed her on their taxes.
    When your child goes on before you, all you have left is 
their memory, their identity, and you will tirelessly work to 
protect it. All I could hear in my head was that I had failed 
to protect Maddi's life, and now I had failed to protect her 
identity. Our tax preparer could offer little assistance. She 
was kind but completely unaware of what our next step should 
be.
    We filed a police report with our local police department, 
only for them to treat us like we were crazy for doing so and 
telling us that it was unnecessary. I spent hours and hours on 
the phone trying to figure out what to do. Most of that was 
spent on hold. I spoke to multiple agencies and multiple 
representatives within each of those agencies, most of whom, 
their calls led me back to another agent who just couldn't help 
me. Many encouraged me to file without Maddi on our return so 
we could get our money. It was never about the money. I had to 
get Maddi's name back. It's all we have now. So we just kept 
searching for answers, searching for someone to help us.
    That is when a friend reached out to me and told me to 
contact Senator Ayotte's office. From there the ball really got 
rolling. We were put in contact with the Tax Advocate's office 
and they were able to see that Maddi's name had been filed at 
least three times, all of which had been rejected. Despite 
these attempts to fraudulently claim our child, we were never 
contacted by any IRS representative to make us aware that this 
had happened.
    With the help of Senator Ayotte's office and the Tax 
Advocate we were able to go through the proper avenues to 
protect her name further, stop any kind of continuing fraud 
using her Social Security number or otherwise, and we were able 
to file our taxes, as a family of four, for the very last time.
    We received our return, and then that was it, nothing to 
tell us what these disturbed individuals who would raid a 
deceased child's identity knew about our daughter. Was it just 
her Social' Did they know anything about her medical history' 
Do they have personal information about her death' Do we know 
them' It was quite literally, 'Here's your check and be gone 
with you.'
    After a newspaper article about our family and a few 
television interviews, we were told the IRS is going to be 
giving victims access to the fraudulent returns and the 
information contained within them. That was months ago and we 
still are no closer to knowing what we must know than we were 
the day we found out Maddi's identity had been stolen.
    More than 50 percent of grieving parents, parents whose 
children passed away before their 13th birthday, will have 
their child's identity stolen. And many will never even get as 
far as we have. We are not the rule; we are the exception. And 
it seems like the bad guys win in every case because although 
we got our daughter's name back, we do not know what they know 
about our daughter, and they will likely never face punishment 
for the crimes committed against our family.
    It's time we step up and we empower our citizens to protect 
themselves and their children against these predators and to 
say enough is enough. Thank you.
    [Applause.]
    [The prepared statement of Ms. Weeks follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Ayotte. Thank you. Thank you so much. I know all of 
our thoughts and prayers are with you for your courage. Thank 
you for being willing to be at this hearing today to help other 
parents so that they don't have to go through this.
    I would like to also welcome Mr. John Walker. Mr. Walker is 
here to talk about his experience as a professional and his 
work with many clients who, unfortunately, have dealt with 
identity theft issues and theft of their personal information.
    Mr. Walker, thank you for being here.

   STATEMENT OF JOHN C. WALKER, ENROLLED AGENT, J. WALKER & 
                          COMPANY LLC

    Mr. Walker. Thank you, Senator, and thank you for holding 
this hearing. My name is John Walker. I am an enrolled agent in 
private practice. I was asked to testify today from the 
perspective of an enrolled agent and the impact tax-related 
identity theft is having on the professional community.
    Just to clarify, for those who are not familiar, when we 
talk about the professional community, I'm referring to the 
four groups of tax professionals that we generally talk about: 
enrolled agents, CPAs, attorneys, and then all other preparers. 
Generally, it is enrolled agents like myself, CPAs and 
attorneys who are authorized by Circular 230, which is the 
Treasury regulations, to represent taxpayers before the 
Internal Revenue Service. Other preparers, with a few very 
limited special exceptions, do not represent taxpayers.
    I represent taxpayers such as Lori and others who have 
problems dealing with the IRS, have these experiences, have 
jobs, family, responsibilities that they must move forward 
with, and they turn to someone like me, or an attorney, or a 
CPA, to handle the dealing with the IRS, do the investigation, 
because we know the system.
    As a professional, I am a member of the National 
Association of Enrolled Agents, the National Association of Tax 
Professionals, the National Society of Accountants, and I'm 
currently on the Board of the New Hampshire chapter of the 
National Society of Accountants.
    On a monthly basis I participate with members of the IRS 
and 15 to 30 other tax professionals from around New York and 
New England in what are called IMRS telephone conferences. IMRS 
is the IRS' own Issue Management Resolution System.
    In addition, twice a year I participate in taxpayer liaison 
meetings, one of which we host here in New Hampshire, and that 
is two dozen tax professionals and IRS managers meeting for 
half a day to discuss in depth the issues in our tax system.
    So with that as a background, I can tell you the issue that 
I am hearing over and over and over again from other 
professionals is that as a result of tax-related identity theft 
and the escalation of fraudulent returns, tax professionals are 
increasingly finding themselves shut out of being able to get 
the information they need to help their clients, to help the 
victims of these identity thefts.
    It's regrettable, but in their haste to respond to the 
explosion of fraudulent returns, the IRS has severely 
restricted or blocked entirely access to taxpayer information 
by those three professional groups--enrolled agents, CPAs and 
attorneys--who are responsible for representing those victims. 
As a representative, just like an attorney, we speak for the 
victim. We step into their shoes, we put in the time, the 
hours, to try to find solutions.
    This is happening even when a taxpayer has specifically 
authorized us on a Federal power of attorney, which is an IRS 
document, to represent them in the identity theft matter. I 
recently had one that was filed in August, and it is 
continually rejected for being posted because their 2014 tax 
year has already been flagged as having had an identity theft.
    The general consensus of so many professionals right now is 
that we feel like the IRS, instead of working with the 
professional community to speed resolution of these cases, is 
making it increasingly difficult and sometimes impossible to 
help these clients.
    Furthermore, and this is terribly important from a 
professional point of view, the victims of identity theft are 
still expected to comply with all other aspects of the tax law, 
to timely file their returns, pay their taxes, make estimated 
tax payments, continue installment payments, and fulfill 
obligations under an Offer and Compromise, if they have one.
    Ordinary, routine tax problems will arise in those other 
compliance issues--the estimated payments posted to the wrong 
account or the wrong year, just to give you one example. To 
assist the taxpayer with any of those problems and do it 
quickly and efficiently and get it corrected requires that we 
continue to have access to the same information we had before 
the identity theft occurred.
    On a case I'm currently working now, the taxpayers came out 
of bankruptcy last year. As part of their bankruptcy plan, 
they're paying on past tax debt. I cannot get any records to 
find out if those payments are being correctly applied to their 
past tax debt, and that is something that we used to have 
routinely as a matter of being able to represent people.
    Normally, a representative would have online access to a 
client's tax information using a tool that's very different 
from the tool that was out there and became such a problem 
earlier this year. The professional tool works much more like 
what most of us use to manage our personal bank accounts, 
perhaps even our medical accounts, make our utility payments, 
credit card accounts, insurance, student records, and the like. 
In other words, access to it is known only to us.
    What makes this all the more frustrating for tax 
professionals is that very often a representative or someone 
posing as a representative, or someone claiming to be the 
taxpayer, can call the customer service number. Granted, they 
have to sit on hold anywhere from an hour to two hours, so it 
becomes an endurance contest. They get a customer service rep. 
They can answer a few simple questions, Social Security number, 
address and so on, and the representative will mail, fax, or 
even read the information to them over the phone.
    So from a professional standpoint, the information that we 
used to be able to get in 5 or 10 minutes online and get a 
problem solved, now we may be able to get if we're willing to 
sit for two hours on the phone and talk to someone. It's 
delaying the whole process, and that is creating a backlog of 
unsolved, routine problems in addition to and over and above 
and beyond the identity theft problems, which are exploding.
    One specific example, a suggestion I can make to the IRS, 
is that with the professional community, they ought to be doing 
exactly the opposite. They should be requiring professionals to 
get the information online, beef up the security around that 
tool, and that would relieve some of the burden on the phone 
system, which does have to be there to service taxpayers who 
are not represented.
    For example, recently I had to get a copy of a bank 
statement on my personal account. There were only two ways I 
could get it. I could not get it by calling the bank and saying 
please mail it to me. I had to either show up at a branch 
office with a photo identity and prove who I was and they would 
print it for me at that office, or I could go online to my 
account where I have set up the security, three security 
questions and so on, and answer the various security protocols, 
submit a request, and it would be mailed to me at the address 
on record.
    I'd like to point out that enrolled agents, CPAs and 
attorneys are all professional individuals who have made a 
substantial investment in both obtaining a professional license 
and maintaining it on an annual basis. We are known to our 
various licensing agencies, and we have often been the subject, 
depending on the agency, of criminal background checks and even 
fingerprinting. In the case of enrolled agents, we've been 
vetted by the IRS itself. So if the IRS does not have 
confidence in letting us have access to the information, 
they're saying they don't have confidence in their own vetting 
process.
    Furthermore, we know our clients personally, usually 
through many years of working with the same client, sometimes 
decades. As a result, we also have access to a substantial 
amount of financial detail. This is a resource that the IRS 
could be using to quickly identify who is the real John Walker 
or Lori or Bill or Joe or Susie, and they're not doing it. 
Instead, taxpayers are being told that once they file an 
identity theft affidavit, that it may take six months to a year 
before the IRS does its own investigation. That seems totally 
unnecessary.
    Furthermore, I think the delay is absurd because in far 
less time you can get a passport. In four to six weeks, the 
State Department can determine with a high degree of certainty, 
even in this post-9/11 era, who somebody's identity is. And if 
they need to expedite it, they can do it in two or three weeks.
    In the case of tax-related identity theft, one very obvious 
and I think simple solution to establish who is the real 
individual would be to ask them to show up at an IRS office and 
present their passport. And if they don't have a passport, they 
can get one in less time than the IRS conducts those 
investigations. The length of that investigation frustrates our 
clients terribly because they hear nothing for months, and they 
wonder if they're going to come back and say, well, we don't 
believe it's you. Meanwhile, they don't know what else is going 
on with their financial lives.
    There are a number of further examples I can give you, the 
kinds of difficulties we run into dealing with the IRS, and I 
have a great deal of respect for everyone at the IRS I deal 
with. We are professionals. We understand they are dedicated 
people trying to do a very difficult job.
    One case I'm currently working provides some good examples. 
Chris and Jane Stevens--not their real names--are a couple in 
their early 60s. They got into financial difficulty because 
they tried to keep a business running in New Hampshire during a 
downturn in the economy. They got way over-extended on their 
mortgages, ended up in a bankruptcy that dragged on for several 
years, finally came out of bankruptcy last August. Chris, by 
the way, was identified with inoperable but treatable throat 
cancer, so he was out of work. His wife continues to work, Jane 
continues to work.
    In February they received a check in the mail from Sunrise 
Bank in California for $9,855. The accompanying paperwork 
explained that this was their 2014 Federal tax refund, which 
was listed as $9,945 less $90 in processing fees. The letter 
explained that the bank had tried to direct deposit it to the 
account specified on the return but for some reason was unable 
to do so, so they mailed them a paper check.
    The Stevens' immediately knew this was wrong because we had 
not even begun to prepare their 2014 return, and they are very 
honest people. They also knew and were already worried about 
the fact that their identities had been stolen in the Anthem 
data breach just a few weeks earlier. So they contacted me and 
we quickly prepared and filed the identity theft affidavits 
with the IRS. We have received one communication indicating 
that they have received the paperwork, and that was filed in 
February.
    Meanwhile, this looked like we had caught it early and we 
should be able to solve this situation really easily because we 
had the check, the money was not stolen, it was not gone. I 
began investigating how the fraudulent funds could be returned 
to the Treasury, and apparently it's a lot easier to get money 
out of the Treasury than it is to get it back in.
    [Laughter.]
    Mr. Walker. No one had any answers. So I reached out to one 
of my contacts in the IRS stakeholder liaison, which is a group 
that interacts extensively with the professional community, for 
help in answering that question, how do we get the money back 
in. It actually took her a little over a month to find a door 
to put the money back in. She got the name and address of an 
IRS office in Fresno, California where we could send the check. 
So on April 15th--maybe that was a bad omen--we mailed the 
check with a cover letter explaining the situation, included 
all possible identification. Incidentally, much of that was 
also printed on the check. We mailed it Priority Mail, 
signature required, and within a few days we received the name, 
signature, and identity number of the person who signed for it 
at the IRS office.
    We filed their 2014 tax return, which had a balance due, 
and we thought we were pretty well done. One of the obvious 
problems in this whole story is this was someone who already 
had a tax debt. They had a balance due on their 2014 return, 
and yet somehow somebody imitating them with their stolen 
identity was able to get $9,945 shipped out of the U.S. 
Treasury without ever checking the balance due on that identity 
number.
    The first week of August, the Stevens received a call from 
a revenue officer in Holtsville, New York. Because I was their 
representative, I returned the call to Holtsville, spoke with 
this revenue officer, and she wanted the Stevens to return the 
check. That's why she was calling. I explained to her that we 
had mailed the check back in April and how we'd done it and how 
we got the address, where we had sent it and so on.
    Well, she checked--no sign of it on the system. She didn't 
believe it had been returned, or if it had been, it had been 
lost. Her words. There was no record of it. So I said, well, 
look, I convinced her to let me fax over the same package we 
had, the cover letter, a copy of the check, all the 
identification information, the signature of the person who 
signed for it, postal transcript of every place it went between 
New Hampshire and California.
    I sent that fax within the hour, never heard from her. Two 
or three days later I called. Her only response was that she 
hadn't received the fax. She hadn't bothered to call and say 
she hadn't received the fax, which is something normally one 
professional would do with another. I work with attorneys and 
CPAs all the time. If I say I'm going to fax something and I 
don't, or they say they're going to fax something to me, 
there's a follow-up call: 'Hey, I didn't get your fax.' Didn't 
hear anything.
    The revenue officer instead shipped the case over to exam 
with a comment that they could pursue the client for the money, 
and that was the extent of her involvement with it.
    Just a few days later we received a letter, this time from 
the Kansas City campus. So now we've got California, 
Holtsville, New York, and Kansas City involved. Kansas City is 
demanding--this letter demands that the Stevens' either return 
the check or pay the $9,855. The letter was dated August 12. 
They have until September 3rd to do one or the other. We 
obviously can't return a check we've already returned and 
that's been lost by the IRS.
    So at that point, Jane Stevens and I--and it was necessary 
for both of us to get involved so the bank could be sure of 
this--got in touch with Sunrise Bank, their fraud department, 
and we were able to establish that the check, in fact, had 
never been cashed, which was fortunate. We also learned that 
the funds are still in the account at Sunrise Bank, and Sunrise 
Bank is only too happy to return them. The bank does actually 
have a process because Sunrise Bank, as many professionals will 
recognize, is an outfit that processes tax refund third-party 
products for a lot of software companies. They actually have a 
process in place to get funds back to the Treasury.
    Jane authorized them to proceed with that. It will take at 
least 15 days to get that, but it does require first that they 
get cooperation from the IRS and an agreement that they will 
accept the return of the funds. Then we have the small issue of 
making sure they get credited to the Stevens' account.
    In the meantime, however, the bank's fraud department can't 
provide us with any written confirmation to explain to Kansas 
City what actually is happening. That responsibility falls to 
me.
    As I was about to end the conversation with the fraud 
department, the representative said she had one other thing she 
had to point out to me. They are required before they return 
the funds to try again to deposit the funds in the bank account 
specified by the thief on the fraudulent return. I won't say 
anything about that.
    [Laughter.]
    Mr. Walker. The disturbing part in that, however, is that 
the IRS has the power to subpoena the bank records and see all 
it can from that account, see whatever they can learn about it. 
They also have the power to levy that account and seize those 
funds before they go back to the thief, by chance, because if 
they don't get them back, what they are going to do is turn 
around and in the next few months they will be sending my 
client notices that they're going to levy their accounts to get 
the money back.
    That's a fairly typical situation that as professionals we 
have to deal with, and we're frustrated because we are 
professionals. We are willing to work with the IRS. We have a 
wealth of information about our clients. It's a resource that's 
not being put to good use.
    Thank you, Senator.
    [The prepared statement of Mr. Walker follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Ayotte. Thank you. It's pretty shocking when you 
hear that's a typical story, what you've done just for these 
two clients.
    I want to thank both of you for your testimony, and I just 
have a few follow-up questions, and then we'll get to the 
second panel.
    I want to ask you, Ms. Weeks, in terms of what you've been 
dealing with, how did you first learn that Maddi's Social 
Security number was actually used in a fraudulent return' What 
happened to you when you did learn that and tried to call the 
IRS'
    Ms. Weeks. We were basically kind of given the run-around 
by each office. I don't think it was necessarily intentional. I 
really think that everyone we spoke to had no idea where to go 
next. Specifically because she was a minor and because she had 
passed away, people didn't know what our next step should be. 
They were mostly thinking that we were concerned with our 
return and getting the money, but that was not our primary 
concern.
    We could have easily filed and gotten the return back and 
then gone through the process, I was told anywhere from six 
months to a year at that point, to regain Madison's identity, 
but that was never an option for us. We were not going to let 
them--not the IRS but the thieves--take from us the last chance 
we had on paper to say that Madison was our child, that we had 
two children in our family, in our hearts for the rest of our 
lives. We are a family of four, but this was the last chance to 
say on paper that we were a family of four.
    So when we called the offices and pretty much everyone 
said, well, why don't you just file, it can go through, it was 
just a big run-around. It was impossible to prove that she was 
ours, but it was super easy for someone to take her away from 
us. That part didn't make sense to me. I had to provide not 
only my identifying information with a birth certificate, 
Social Security card, driver's license, but I also actually had 
to send over my daughter's death certificate to the IRS to 
prove that she had passed away, as if I would call and state 
that my 7-year-old child was gone when she was not. I had to 
provide multiple copies of that information to multiple 
agencies.
    Senator Ayotte. Different people.
    Ms. Weeks. Different people within the same agency.
    Senator Ayotte. So you were never assigned one point of 
contact.
    Ms. Weeks. Never. The only time I was was when I started 
working with your office and the Tax Advocate's office was 
assigned to me. Other than that, I just kept getting pushed 
from one person to the next person to the next person, and 
online there was very little help as well. It wasn't even a 
resource that says, okay, this has happened to you and these 
are the steps you need to take. It was all over the board and 
no one website could give us concrete steps as to your child's 
identity has been stolen, this is what you need to do next, 
after this you do this, make sure you keep copies of this.
    Like I said, the police department made us feel like we 
were being kind of silly filing a police report with them. But 
then speaking with someone in the IRS office, they said, oh, if 
you hadn't gotten that, we couldn't have moved forward. But 
even the police department, our tax preparer, none of them were 
100 percent sure if we even needed to do that, but we wanted to 
cover all of our bases, so we did.
    Senator Ayotte. And I know that, as I understand it, you've 
heard from other families that have gone through this as well'
    Ms. Weeks. Many.
    Senator Ayotte. Unfortunately.
    Ms. Weeks. Yes. I am a part of several online support 
groups for grieving families, and when we started going through 
this, just like I do a lot, I shared on the website what we 
were going through, and very quickly the page filled up with 
'Us too, us too, us too.' And if it wasn't their child, it was 
their sister's child's identity had been stolen. Multiple 
friends on Facebook and through personal conversations spoke to 
me about their family members going through very similar 
things.
    A friend of mine, her cousin passed away several years ago 
when he was 19 years old, and his identity was stolen, and the 
IRS refused to correct the fraudulent return because a check 
had been mailed and the person who stole his identity had 
cashed it, and they told his parents, his grieving parents, 
that they couldn't prove that they weren't the ones that 
received the check and cashed it, so they refused to correct 
the situation. It's been five years and they are still fighting 
for their son's identity. It's not about the money for them, 
just like it wasn't for us. It was about saying that this child 
is ours and somebody taking that from you.
    Senator Ayotte. Thanks.
    Mr. Walker, you had referenced the history of having your 
professional history and dealing with this, how things have 
changed. When has this changed' You used to be able to get 
better access for your clients to be able to help manage their 
day-to-day tax issues, but also resolve issues. So can you give 
us some perspective on----
    Mr. Walker. Yes. In the last 18 to 24 months is when we 
started seeing this freeze come on. When you work a client's 
issue for multiple years, as I do, you're constantly going back 
to make sure payments have been made and applied to the right 
year and so on. So you need that access to see those records.
    Senator Ayotte. And how has the response time been, as 
someone who is a professional? You talked about an hour or two 
trying to get through. Has that been your historical 
experience, or do you think that----
    Mr. Walker. Phone service has always been time-consuming. 
There are certain times of the day, if you time it carefully, 
you can get through faster than others, and as a professional 
you learn when those times are.
    One of the problems, of course, with the phone service is 
that the call gets routed anywhere, all over the country. 
You're never talking to the same individual, so you don't get 
the same answer. In fact, you can call as a professional trying 
to settle a payment plan, and they'll tell you they want the 
information on a 433A. You call back when you've got that 
financial information on a 433A and that person says, oh, I 
only work a 433F, and on it goes.
    I had one client who owed money. He made seven calls to try 
to pay the balance due and find out what he had to do. He got a 
different story from every collection agent, and then he came 
to me. It took me five calls. This was somebody who wanted to 
pay in full his tax debt in four years, and it was an argument 
over whether his financial information was going to be on an A, 
a B, an F, or one of the others. There are five different 
433's.
    Senator Ayotte. And how do you think we could resolve that' 
It sounds like getting back to allowing professionals to have 
tools that they've had in the past to communicate on behalf of 
their clients, and also more consistency in terms of who you're 
dealing with when you call, as opposed to being bounced around?
    Mr. Walker. Yes. There should be, when you're working these 
cases, it would make sense to have one point of contact.
    Senator Ayotte. Assigned to you.
    Mr. Walker. Yes. It would speed things up. If we had access 
to the online tools, the thing is we have the knowledge and the 
experience to read those transcripts, to know what's going on, 
to do the investigation. So when we call we're not saying, hey, 
we've got this problem. We're calling saying the estimated tax 
payments for 2013 were applied to 2008 and they shouldn't have 
been, that's supposed to be these payments. We call with 
solutions.
    Senator Ayotte. Well, I want to thank both of you for 
taking the time to be here today to testify before this 
committee. It's very important to hear the perspective of what 
are the difficulties that taxpayers are facing, and I know that 
there are many of my constituents who are here, who have 
written me, who have experienced, unfortunately, similar 
situations where they feel that they've gotten the run-around.
    So I want to thank both of you for being here, and I'm 
going to call the second panel up, and I'm glad that our second 
panel certainly were able to be present and hear directly your 
experiences because they're in a position where, hopefully, 
they can address these concerns. So thank you both very much 
for spending the time here.
    Ms. Weeks. Thank you for this opportunity.
    Senator Ayotte. Thank you.
    Mr. Walker. Thank you, Senator.
    Senator Ayotte. Appreciate it.
    [Pause.]
    Senator Ayotte. I want to thank you for being here today, 
and I appreciate that you had the opportunity to hear from Ms. 
Weeks and Mr. Walker and hear the experiences that they've had 
with identity theft, either themselves, unfortunately, or on 
behalf of their clients.
    First I would like to welcome the IRS Commissioner, John 
Koskinen, as well as the Treasury Inspector General, J. Russell 
George, for Tax Administration for the Department of the 
Treasury, and Mr. Christopher Lee, a Senior Attorney Adviser 
for the National Taxpayer Advocate Service, and thank all of 
you for being here today.
    I would ask you, I know we have your written testimony, and 
certainly you can summarize that if you'd like to.
    So I would ask the Commissioner of the IRS to offer his 
testimony first.
    Mr. Koskinen.

STATEMENT OF HONORABLE JOHN A. KOSKINEN, COMMISSIONER, INTERNAL 
                        REVENUE SERVICE

    Mr. Koskinen. Thank you, Senator Ayotte. Thanks for the 
opportunity to discuss the IRS' efforts to combat stolen 
identity refund fraud and to protect taxpayer information from 
cyber-security threats.
    Securing our systems and protecting taxpayer information is 
a top priority for the IRS. Over the past few years we have 
devoted as much time and attention to this challenge as 
possible, even with our constrained resources. Since 2010, we 
have increased our dedicated spending in this area from just 
over $20 million to $430 million, and we've been making steady 
progress both in terms of protecting against fraudulent refund 
claims and prosecuting those who engage in this crime.
    Thanks to the work of our Criminal Investigation Division, 
over 2,000 individuals have been convicted on Federal charges 
related to refund fraud involving identity theft, over the past 
few years. We currently have about 1,700 open investigations 
being worked by more than 400 IRS criminal investigators. And 
since 2013, we have initiated more than three dozen cases that 
involve one or more victims who are New Hampshire residents.
    The total number of identity theft-related convictions and 
open investigations is actually larger than what I just 
described, when you factor in the important work being done by 
law enforcement agencies at the state and local level, in New 
Hampshire and around the country. The IRS works in close 
collaboration with those agencies.
    During calendar year 2014, the IRS protected more than $15 
billion in refunds, including those related to identity theft. 
We continue to improve our efforts at stopping fraudulent 
refunds from going out the door. For example, we have improved 
our processing filters, allowing us this year to suspend about 
3.2 million suspicious returns and hold them for further 
review, an increase of over 500,000 from the year before.
    And we continue to help taxpayers who have been victims of 
identity theft. The IRS has 3,000 people working directly on 
identity theft-related cases, and we've trained more than 
35,000 employees who regularly work with taxpayers so that 
these employees have the tools to help with identity theft 
situations when they arise.
    In addition, we recently completed our efforts to 
centralize victim assistance with our new Identity Theft Victim 
Assistance Organization. This has allowed us to consolidate 
work being done by four different parts of the IRS into one 
business operating division. It's also important to note that 
we provide taxpayers, victimized by identity theft with a 
single point of contact at the IRS via a special toll-free 
telephone line. Taxpayers who become identity theft victims in 
2015 can expect to have their situation resolved in less than 
120 days, far more quickly than in previous years when cases 
could take over 300 days to resolve. I am a little concerned 
about references made to six months or longer to resolve those 
cases. That's not our experience overall.
    While this marks a significant improvement, we are 
continuing to work to find ways to shorten this time and ease 
the burden identity theft places on these victims. In 2014, the 
IRS worked with victims to resolve and close approximately 
826,000 cases of identity theft.
    While the IRS has improved its ability to stop individuals 
from perpetrating stolen identity refund fraud, we continue to 
see an increase in organized crime syndicates around the world 
engaging in these crimes. These cyber-criminals have been able 
to gather significant amounts of personal information as a 
result of data breaches at sources outside the IRS, which makes 
protecting taxpayers increasingly challenging and difficult.
    A good illustration of this problem is the unauthorized 
attempts to gain access to our Get Transcript application 
earlier this year. In this instance, the criminals already had 
accumulated large amounts of stolen taxpayer information from 
other sources which allowed them in some cases to access 
individual prior year tax returns. We shut down the Get 
Transcript application and it will remain disabled until we 
make modifications and further strengthen security for this 
application.
    To improve our efforts against this complex and evolving 
threat, the IRS held an unprecedented sit-down meeting in March 
with the leaders of the electronic tax industry, the software 
industry, and state tax administrators. All of us agreed to 
leverage this public-private partnership to help battle stolen 
identity refund fraud. Motivating us was the understanding that 
no single organization can fight this type of fraud alone. We 
spent 12 weeks studying what needed to be done, and in June we 
announced new steps to provide stronger protections for 
taxpayers and the nation's tax system. The critical point for 
taxpayers to understand is that new protections will be in 
place by the time they have to file tax returns in 2016.
    The result is that the Federal Government, states and 
private industry will stop more fraud related to identity theft 
up-front, and to the extent fraudulent returns do get through, 
we will have better post-filing analytics to determine ways to 
adjust our security filters. We will also continue to enhance 
our methods of tracking down the criminals and add to those 
2,000 individuals already serving jail time for Federal tax-
related identity theft.
    Going forward, the IRS and its partners will continue 
collaborating to address longer-term issues and build lasting 
changes.
    Congress, as you note, has an important role to play in the 
fight against stolen identity refund fraud. Adequate funding 
for the IRS is critical. Congress can also help by passing 
several legislative proposals. One of the most important of 
these would accelerate the due dates of third-party information 
returns such as W-2's that would allow us to match these 
documents against income tax returns earlier in the tax-filing 
process, and would help us more quickly spot errors and detect 
potential fraud.
    Senator Ayotte, this concludes my statement. I'd be happy 
to take questions.
    [The prepared statement of Mr. Koskinen follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Ayotte. Thank you, Commissioner.
    We will now hear from the Treasury Inspector General, J. 
Russell George, for the Tax Administration Department of the 
Treasury.

STATEMENT OF HONORABLE J. RUSSELL GEORGE, INSPECTOR GENERAL FOR 
         TAX ADMINISTRATION DEPARTMENT OF THE TREASURY

    Mr. George. Thank you, Senator Ayotte, for hosting this 
hearing and the opportunity to provide testimony on the 
important subject of identity theft and the impact it has on 
both the Internal Revenue Service and taxpayers.
    The Treasury Inspector General for Tax Administration, or 
TIGTA, has provided ongoing oversight and testimony on tax 
fraud-related identity theft. Our audit work shows that while 
the IRS is making progress in detecting and resolving identity 
theft and assisting victims, improvements are still needed.
    My comments today will focus on the results of our prior 
audit work and our ongoing work to assess the IRS' progress on 
this issue.
    The IRS continues to make progress on both preventing 
fraudulent tax returns from entering the tax processing system 
and on detecting fraudulent tax returns during processing. The 
IRS reported that in processing year 2014, and that's when they 
consider the tax returns from 2013, it detected and prevented 
over $24 billion in identity theft refund fraud.
    The IRS continues to expand the number of filters used to 
detect identity theft refund fraud at the time tax returns are 
processed. For example, the IRS increased the number of filters 
from 80 filters during processing year 2013 to 114 filters 
during processing year 2014. As of September 30th, 2014, these 
filters were used to detect over 830,000 tax returns and 
prevented the issuance of over $5 billion in fraudulent tax 
refunds.
    TIGTA has previously identified large volumes of undetected 
potentially fraudulent tax returns with tax refunds issued to 
the same addresses or deposited into the same bank accounts. In 
response, the IRS developed and implemented a clustering 
filter. Using this tool, the IRS reported that as of early 
October 2014, it had identified approximately 517,000 tax 
returns and prevented the issuance of over $3 billion in 
fraudulent tax refunds.
    In addition, beginning with the 2015 filing season, the IRS 
implemented restrictions to limit the number of deposits to a 
single bank account. TIGTA is currently evaluating whether this 
is working as intended.
    Notwithstanding improvements in its detection efforts, 
access to third-party information, both income and withholding, 
is the key to enabling the IRS to prevent the continued 
issuance of billions of dollars in fraudulent tax refunds. Most 
of the third-party income and withholding information is not 
received by the IRS until well after tax return filing season 
begins. So, for example, the annual deadline for filing most 
information returns--we're talking about the W-2s and the 
1099s--with the IRS is March 31st. Yet taxpayers can begin 
filing their tax returns as early as mid-January each year. For 
the 2014 filing season, the IRS had received over 90 million 
tax returns as of March 28th, 2014. Legislation would be needed 
to accelerate the filing of the information returns.
    One practice that is designed to protect taxpayers from 
being victimized again the following year is the issuance of 
identity protection personal identification numbers. However, 
TIGTA reported in September 2014 that over 530,000 eligible 
taxpayers were not provided these numbers as required. 
Additionally, we have previously reported that identity theft 
victims experienced long delays in resolving their tax 
accounts. We found that in Fiscal Year 2013, the IRS took an 
average of 278 days to resolve the tax accounts. Our review 
also identified that the IRS made errors on the tax accounts of 
victims of identity theft, resulting in delayed refunds and 
requiring the IRS to reopen cases and take additional actions 
to resolve the errors.
    Recently, the IRS announced that unauthorized users were 
successful in obtaining access to over 350,000 taxpayer 
accounts using its Get Transcript application. The IRS believes 
that some of this information may have been gathered to file 
fraudulent returns during the upcoming 2016 filing season. 
TIGTA continues to investigate this incident, coordinating with 
other Federal law enforcement agencies. TIGTA has an audit 
ongoing to evaluate the IRS' assistance provided to victims of 
the Get Transcript data breach.
    We at TIGTA, Senator, remain concerned about the ever-
increasing attempts to defraud taxpayers through identity theft 
and other scams. Because of the importance of these issues, we 
plan to provide continuing audit coverage of the IRS' efforts 
to prevent tax identity theft and will continue to investigate 
any instances of attempts to corrupt or otherwise interfere 
with the nation's system of tax administration.
    Senator Ayotte, thank you for the opportunity to provide an 
update on our work on this critical tax administration issue 
and to share my views.
    [The prepared statement of Mr. George follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Ayotte. Thank you.
    Mr. Christopher Lee, Senior Adviser Attorney for the 
National Taxpayer Advocate Service.
    Thank you, Mr. Lee.

STATEMENT OF CHRISTOPHER LEE, SENIOR ATTORNEY ADVISER, NATIONAL 
                   TAXPAYER ADVOCATE SERVICE

    Mr. Lee. Senator Ayotte, thank you for inviting me to speak 
today about tax identity theft. When I joined the Taxpayer 
Advocate Service in 2004, one of my first assignments was to 
look into how the IRS was dealing with the small but growing 
problem of identity theft. Since then, the National Taxpayer 
Advocate has included identity theft as the most serious 
problem in nearly every annual report she has delivered to 
Congress.
    Today, identity theft cases account for approximately one-
quarter of all TAS case receipts. These cases are usually very 
complex, often involving many years and involving multiple 
issues. In TAS, we assign a single case advocate to work with 
the taxpayer from day one until all related issues have been 
resolved. The taxpayer has the case advocate's direct phone 
number and deals solely with this case advocate throughout, no 
matter how many IRS employees are involved in the back end.
    I am pleased to report that TAS resolves identity theft 
cases in about 66 days. To get an accurate sense of how long it 
takes the IRS to work an identity theft case, TAS reviewed a 
representative sample of approximately 400 identity theft cases 
closed by the IRS during the month of June 2014. We found that 
the average cycle time was 179 days, or about six months. We 
reported this and other key findings in Volume II of the 
National Taxpayer Advocate's 2014 Annual Report to Congress 
that we released in December.
    Apart from the time and aggravation in having to prove 
one's own identity again and again, the most significant impact 
to a victim of tax-related identity theft is the delay in 
receiving his or her refund. With the average refund amount 
being approximately $2,700, getting access to their tax refund 
is a big deal, particularly for low-income taxpayers, which is 
why we have been pushing the IRS to resolve these cases 
promptly.
    Some victims also experience consequences when other 
Federal agencies or private businesses rely on IRS data. For 
example, the IRS generally will not release account transcripts 
while an identity theft case is pending, so students applying 
for financial aid and homeowners applying for a mortgage may 
face additional obstacles.
    Despite a memo from the IRS Office of Chief Counsel 
concluding that the IRS may share with the victim a copy of a 
return filed by an identity thief, the IRS continues to deny 
such requests. Commissioner Koskinen recently committed that 
the IRS would allow identity theft victims to obtain redacted 
copies of tax returns filed under their SSN. We support this 
decision and look forward to the adoption of the new 
procedures, and we thank you for your involvement in this 
decision.
    In many instances, the IRS is the first to learn of the 
identity theft. In 2011, we recommended that when the IRS 
discovers that a taxpayer's SSN is used without authorization 
to file a tax return, it immediately notify the SSN owner.
    Last summer the IRS conducted a pilot program and notified 
approximately 25,000 taxpayers that their SSN had been misused 
for tax purposes. The IRS is currently evaluating 
recommendations from the pilot, and we urge the IRS to adopt 
the recommendation that it systemically issue letters to 
taxpayers informing them that someone has attempted to file a 
tax return using their SSN.
    Thus far, I have focused on the victim assistance aspects 
of identity theft. Now I will share some thoughts on what the 
IRS is doing to prevent identity theft from occurring in the 
first place.
    The IRS uses targeted filters to suspend the processing of 
tax returns that it suspects were filed by identity thieves. 
While we support the use of data-driven models to detect 
suspicious tax returns, the IRS has an obligation to 
sufficiently test these filters prior to rolling them out. This 
filing season approximately one out of three returns suspended 
by one such program, the Taxpayer Protection Program, were 
false positives, meaning that hundreds of thousands of 
taxpayers who had filed legitimate returns had to spend time 
contacting the IRS to verify their identity. This resulted in a 
severe backlog of calls to the Taxpayer Protection Program 
phone line, and in some weeks only 1 in 10 callers got through 
to an assister. We cannot afford to have a repeat of this 
filing season when far too many legitimate filers were 
inconvenienced and then were unable to reach an assister when 
they called the number instructed.
    All this does not paint a pretty picture, but there is some 
good news. The IRS has recently reorganized its identity theft 
victim assistance units, moving toward a more centralized 
approach for which our office has long advocated. TAS will be 
involved in the reengineering of identity theft victim 
assistance procedures this fall, and we will reiterate our 
recommendation that when a case involves multiple issues, one 
IRS employee should oversee the case to make sure the problems 
are handled in a coordinated manner.
    I appreciate the opportunity to testify today and would be 
happy to answer your questions.
    [The prepared statement of Mr. Lee follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Ayotte. Thank you, Mr. Lee.
    Commissioner Koskinen, first of all--you heard Ms. Weeks' 
testimony, and I wrote to you, really at her urging, to ensure 
that taxpayers could get a copy of their fraudulent return. You 
have agreed now to do that. I have to tell you, since you 
agreed to do that, people across the country have been 
contacting my office on this issue. So when will this happen' 
Because I know not only Ms. Weeks, but many taxpayers, they 
want to know how their information was misused so that they can 
take steps to protect themselves, and obviously I think all of 
us, if we were a victim, would want to know the full extent of 
how such personal information is being abused.
    Mr. Koskinen. And as you know, we support that need. We 
think taxpayers do need to be able to have access to that 
information, if for nothing else, as Ms. Weeks noted, just to 
close the circle and to understand what's been involved.
    Senator Ayotte. I think it can also help you understand 
what you need to do to protect yourself, too.
    Mr. Koskinen. Yes. For instance, with Get Transcript, we 
immediately, as soon as we found there was an issue, notified 
taxpayers. I do think that taxpayers need to get notice. I 
think they need to have access to the information.
    Since you and I talked it has turned out that, like 
everything, it's more complicated to get the system to work 
than I had hoped. Part of it is because we have an obligation 
under Section 6103 to protect taxpayer information. So the 
complication is--and we're talking about, as you know, hundreds 
of thousands of identity theft cases a year--that when a return 
is filed, there may be more than one taxpayer's Social Security 
number involved. For instance, in Ms. Weeks' case, where a 
child is taken as a dependent, what's happening at the top of 
that fraudulent return is that there are other stolen 
identities. So that information can't be provided because those 
are real people. It's just that somebody has stolen that 
information and impersonated them. So we can't provide that 
information to any of the other taxpayers on the return.
    Similarly, attachments, whether they're W-2's or other 
forms, oftentimes have stolen information from other taxpayers. 
We are not allowed to share, for instance with Ms. Weeks, the 
other taxpayer who has had their information stolen.
    To do it manually, if you think about it, you'd say, well, 
I could redact that information pretty quickly. But what we 
need is a system that will do that automatically so that we can 
regularly provide this information.
    I had hoped we'd get that up sooner. I am told that in a 
few weeks we will be able to, as a regular matter for any 
taxpayer, be able to provide that.
    If your identity is stolen and it is the identity used for 
filing the return, then that information is all available to 
the taxpayer.
    Senator Ayotte. They can get everything if they're using 
their identity.
    Mr. Koskinen. If you're using your identity. In cases like 
Ms. Weeks', where it's simply a stolen identity to add to a 
deduction but it's not the return, that's where it gets more 
complicated as to how much information is there. In Ms. Weeks' 
case, for instance, the only use of the identity, and that's 
generally the case for a child, is just to use the child's 
Social Security number. There is no other information about the 
child on that return. She's been a good catalyst for all of us 
to try to get this problem solved. In her case, when she gets 
the copy of the return, the information will all be redacted 
because the data belongs to the other taxpayer-victims----
    Senator Ayotte. So what kind of investigation is being done 
to ensure that the taxpayer information at the top isn't just 
another innocent taxpayer who has been stolen but someone who 
may be involved in some way in the perpetration' Is there a 
follow-through done'
    Mr. Koskinen. Yes.
    Senator Ayotte. Because I think, at the end of the day, 
we're all appalled at what's happened to the Weeks family, and 
we want to make sure we get those who have committed this 
horrific crime and hold them accountable.
    Mr. Koskinen. Yes. The challenge for the entire economy in 
a digital age is the tremendous amount of personal data that's 
available to criminals. The estimate is over 100 million 
Americans have data out in the hands of criminals. The Dark 
Net, as it's called, the underside of the Web, has an estimated 
five times as much information as the entire Public Web. There 
are criminal syndicates in Russia, for instance, reputed to 
have 1 billion user identity's and passwords.
    So what's happening with children, children's identity's 
and Social Security numbers are used in schools, they're used 
in hospitals, they're used with regard to health care. On 
certificates, when children or adults die, that information is 
available. Congress supported us and we shut down the 
availability of the Death Master File, because what criminals 
want is to file a return where there isn't going to be a 
competing return. They increase their chances of getting 
through. So that's why they like people who are deceased, poor 
people who are not likely to file, elderly people who are not 
likely to file.
    In any event, the bottom line is taxpayers deserve to have 
as much information about that false return as we can provide 
them. As I say, within the next few weeks I am advised, because 
I've asked this question again, that we will have a system that 
will allow people automatically to get that information.
    Senator Ayotte. So, Commissioner, in the next few weeks, 
what can I expect as a deadline?
    Mr. Koskinen. Well, I asked that question, and we have a 
lot going on. Our people have said that they would like to 
certainly before October is over. In other words, in the next 
six to eight weeks we should have that system. It's already 
being built. We've got the legal authority for it. We hope to 
then regularly be able to provide that information before we 
get very far into the fall. I could not pin them down any 
further because we're also doing all of the IT work to get 
ready for the next filing season.
    Senator Ayotte. All right. I need you to pin them down.
    Mr. Koskinen. All right, I will.
    Senator Ayotte. Because this is important.
    Mr. Koskinen. I will start by saying that if it's not ready 
by the end of October, I will want to know. If we can get it 
earlier than that, we will do that.
    Senator Ayotte. Well, we'll be following up.
    Mr. Koskinen. And that would be fine.
    Senator Ayotte. Because this is incredibly important, not 
just to Ms. Weeks, but I know many of the taxpayers that are 
here today who want more information about how their personal 
information has been misused.
    Mr. Koskinen. Right.
    Senator Ayotte. So this is one where I hope you'll make it 
a top priority to get this done.
    Mr. Koskinen. Right. And one of the things we are concerned 
about is that this is information that the criminals have 
gotten from somewhere else. So when they get enough information 
to file a false return, or to access a Get Transcript account, 
our major concern for taxpayers is to understand that data is 
out there and they need to know what's on the tax return, but 
more importantly, they need to then take steps to protect their 
information.
    Senator Ayotte. Absolutely.
    Mr. Koskinen. It goes to changing your identity, changing 
your passwords, not using the same----
    Senator Ayotte. It's a huge process and a big rigmarole. 
When you become the victim of identity theft, all your credit 
information, everything is impacted.
    Mr. Koskinen. Yes. And so whatever we can do to be helpful, 
we are going to try to do. It's a traumatic event for 
taxpayers.
    Senator Ayotte. It is. I'm going to hold you to that.
    Mr. Koskinen. That's fine. I'm happy to be held to that.
    Senator Ayotte. I appreciate it.
    So, I wanted to follow up, with Mr. Lee, and Inspector 
George. I know the Commissioner says we're going to assign one 
point of contact now, and that sounds new to me on this, 
because we heard the story from Ms. Weeks, we heard the story 
from Mr. Walker as well, about the jumping around and the 
rigmarole that people are going through when they're trying to 
correct the record--in Mr. Walker's case, when his clients 
actually tried to return money to the Treasury.
    So when will this get in place?
    The other question I have is I know you said 120 days, but 
just listening to everyone here I heard 120 days, and then I 
heard 278 days, and then I heard 179 days. I bet you if I went 
out into that audience and asked folks out there that were 
victims of identity theft, they'd be talking about hundreds and 
hundreds of days, unfortunately.
    So can you clarify that for us and how we're going to get 
more responsive here and make it easier for people?
    Mr. Koskinen. Yes. Let me just clarify one thing. As noted, 
we have consolidated what used to be in four different 
departments of the IRS to try to get a single point of 
operations and contact. The issue that the Taxpayer Advocate, 
Nina Olson, and I continue to discuss is, whether within that 
now centralized unit--which we think will be much more 
efficient and allow us to move faster--whether you should have 
an individual person answering the phone.
    The Taxpayer Advocate, as Mr. Lee pointed out, suggests 
that if there are complications, there ought to be one person. 
Our sense is if we can build the right system--for instance, 
when you call an airline and talk to someone, when you call 
back you don't get the same person, but they have a system that 
allows them to know exactly what you said the last time you 
called. We are not quite there yet, but our hope is, with a 
little bit of funding, that we can actually build a record so 
that when you call the next time your previous discussion is 
already readily available. Because otherwise, that's when 
people think a single person is good.
    The problem with a single person, the reason airlines and 
Amazon don't do that, is that when you call back, they may be 
on vacation, they could be at lunch, they could be on another 
phone line. But I take the point, that there's nothing more 
frustrating, and nothing has been more frustrating, than being 
moved from one part of the agency to another.
    Senator Ayotte. Right. It's like you told your story once, 
and then you get someone new and they don't know anything about 
it.
    I wanted to allow Mr. George and Mr. Lee to comment on that 
as well.
    Mr. George. As it relates to the timing, Senator, the IRS 
issued guidance in Fiscal Year 2013 to inform taxpayers, for 
their employees, IRS employees to inform taxpayers that these 
matters would be resolved in 180 days.
    Senator Ayotte. Okay.
    Mr. George. What we uncovered is that during that 
timeframe, Fiscal Year 2013--oh, and what they also did, the 
IRS informed the oversight board, the IRS oversight board that 
they were resolving these matters in 120 days. So that's 
where----
    Senator Ayotte. So in other words, if I'm a victim of 
identity theft, the IRS is saying 180 days.
    Mr. George. That was the guidance that they issued.
    Senator Ayotte. That was the last guidance on the issue.
    Mr. George. Unless there was subsequent guidance, and that 
one I can't say for the record.
    Senator Ayotte. So what is really happening?
    Mr. George. Well, what is happening is the information that 
was reported out, the IRS eliminated an entire subset of cases 
closed during Fiscal Year 2013. The information that they 
relayed was cases that were open and closed in Fiscal Year 
2013, as opposed to the previous cases that had come to their 
attention in Fiscal Year 2012 and prior that were also closed. 
So that eliminated almost two-thirds of the cases that were 
outstanding that they reported out on. So that's why there's a 
difference of opinion as to the number of cases.
    Senator Ayotte. What are you hearing, Mr. Lee, in terms 
of----
    Mr. George. Or the number of days, rather.
    Senator Ayotte. I'm sorry. Mr. Lee, and then go ahead if 
you have more to offer, Mr. George.
    Mr. Lee. Yes, I think there are a couple of things going 
on. Number one, the IRS is continually improving their 
processes. So I think TIGTA has looked at the cycle time of 
identity theft cases in each of the past three years, and the 
first year, I guess Fiscal Year 2008, before they came out in 
2013 they came out with an estimate of 414 days, and then the 
following year they came out with reports saying the average 
cycle time was 212 days, and then earlier this year the cycle 
time was reported as 278 days. So clearly, the IRS is improving 
its processes.
    Especially in 2013 the IRS has new processes, and I believe 
even in TIGTA's report where they estimate 278 days, they used 
a figure of 174 days with the new procedures. So I think six 
months is the most accurate estimate. We conducted a thorough 
review last summer where we looked at 400 cases selected at 
random of all IRS cases closed in June 2014, and we came out 
with 180 days.
    We've heard reports from certain groups within the IRS 
saying they were going to close their cases in 120 days, which 
is great. But what we found is that the IRS often looks at 
cases on a module-by-module basis. So even if that particular 
function was able to close cases in 120 days----
    Senator Ayotte. It's not fully closed.
    Mr. Lee.--it doesn't mean that all the taxpayers' issues 
were resolved in that 120 days. So I believe our estimate----
    Senator Ayotte. So let's get to the bottom line here, would 
we all agree that the number of days is unacceptable that 
people are waiting right now? Because I'm hearing a number of 
six-month stories, if not longer.
    Yes or no? Mr. Lee?
    Mr. Lee. Yes, I feel that six months is not acceptable, but 
it's obviously much better than 278 days.
    Senator Ayotte. It's all relative. But if you are a victim, 
that's a long time, especially if your tax refund. We've got 
constituents, people who need these tax refunds to pay 
important bills to keep going.
    Mr. George. And I'm sure that the Commissioner will address 
this further, and there is no question that it's unacceptable, 
but the IRS is restricted by resources, Senator. There's no 
question about that. Additional resources would allow for more 
attention to this matter. During the tax filing season, 
individuals who would otherwise work on these types of cases 
and assist taxpayers have to now take on phone questions, 
responsibilities to respond to questions about filing tax 
information, and so they have to put aside their cases working 
on tax-related identity theft.
    But again, I'll refer to the Commissioner.
    Senator Ayotte. Commissioner.
    Mr. Koskinen. Well, I don't want every problem when I 
testify to be tied to the budget, but the Inspector General is 
correct. Ultimately, this is a question of manpower or person 
power in terms of addressing it.
    I think what you've heard, we'd all agree, is the process 
is much better than it was three or four years ago. As the 
Inspector General said, part of what happens in the measuring 
of time is the old cases took longer. If you add them into the 
newer cases, which take less time, the average is still higher.
    Our goal is to get it down to 120 days or less for cases 
when they start. We still have cases thattake longer. Even 120 
days we aren't satisfied with. But as the Inspector General 
said, we think the consolidation of the four departments into 
one will allow us to move more quickly. But ultimately, in the 
middle of tax season when we're processing 150 million returns, 
the fact that we have several thousand fewer people on the 
phones means that the system bogs down.
    Senator Ayotte. Mr. Lee.
    Mr. Lee. Senator, I just want to mention that the Taxpayer 
Advocate Service is also faced with budget constraints. But if 
a taxpayer is facing economic burden, they are able to come to 
us and we've been able to get them the refund in a much shorter 
time, in about two months. So that is one option. We don't want 
all of the IRS' identity theft cases, but when the taxpayer has 
a hardship or economic burden, we are happy to take on their 
case.
    Senator Ayotte. I appreciate it. And I just want to also 
make sure that we clarify. As I understand the resource issue, 
I know that the amount committed to taxpayer services was 
actually the same, because you and I have kind of gone around a 
little bit on this, from 2014 to 2015. But as I understand it, 
the agency chose to reallocate about $133 million in user fees 
from taxpayer services to operation support accounts, most of 
which has gone to implement the new health care law.
    Mr. Koskinen. Correct. What's important to understand is 
that we have user fees that historically have been used as a 
buffer to allow us to fund unfunded issues as they come up. 
This year the ABLE Act was passed in December. We don't have a 
budget for that. The health coverage tax credit has been 
passed, and we don't have a budget for that. Normally we'd 
apply user fees.
    Well, in the last three or four years, because the taxpayer 
services, account has never been fully funded, we used user 
fees to support it, and this last year we used $50 million to 
support it. But that was about $100 million less than we used 
the year before, and you're right, we had to put that into 
supporting the establishment of the Affordable Care Act, both 
because it's a statutory mandate and also, for taxpayers, we 
had to be able to run the filing season and process 5 or 6 
million returns that, in fact, reconciled the advance premium 
tax credits received.
    So we have enforcement, we have taxpayer service, we have 
IT operations and maintenance, and as the budget has been cut 
for five years, we had to balance where we put these funds.
    Senator Ayotte. I just want to make sure we're clear, 
though, in terms of what was allocated between 2014 and 2015 
for taxpayer services. That number has remained the same, but 
you had other responsibilities added.
    Mr. Koskinen. That number as an appropriation remained the 
same, but because of the fact that the appropriation overall 
was cut, it meant that the $100 million that would have gone 
into taxpayer services----
    Senator Ayotte. Right. But when Congress put the money for 
the services, that's where they put the same amount of money, 
right?
    Mr. Koskinen. Right, and when I testified to the 
appropriators, I said if we were held flat our taxpayer service 
was going to be at the 50 to 60 percent level. When it turned 
out that we weren't held flat, that in fact our budget was cut 
by $350 million, we had no choice but to take $100 million to 
fund the statutory mandate passed by Congress.
    Senator Ayotte. To deal with the new law, the Affordable 
Care Act.
    Mr. Koskinen. To deal with the new law, yes. This year we 
are having to take money out of enforcement and taxpayer 
services, to fund other statutory unfunded mandates. The ABLE 
Act is a perfectly good act. The Health Coverage Tax Credit is 
a perfectly good act. We have no money provided by Congress to 
fund the implementation of those programs. We have to do it. 
The only place it comes from is either enforcement, taxpayer 
services, or our ongoing IT work.
    Senator Ayotte. So let me ask the Inspector General, you've 
made a number of recommendations that you believe the IRS could 
implement to save money. What thoughts do you have on that?
    Mr. George. What I'd like permission to do, Senator, is to 
provide you in writing a thorough listing, but I'll just give 
you what I think would be the most helpful way for the IRS to 
do its mission and for the U.S. Treasury to benefit.
    Senator Ayotte. Sure.
    Mr. George. When the information reported to the IRS on 
income is provided by a third party, we have uncovered during 
the course of all the audit work that we've done and from 
outside sources that the compliance rate among taxpayers who 
fall into that category--and again, the category is somebody 
else is reporting that the taxpayer earned $100 that year or 
that pay period, that year--it's almost 98 to 99 percent 
compliance rate.
    At the opposite end of that spectrum are people who operate 
businesses on a cash-only basis who self-report, the compliance 
rate is under 20 percent.
    So if there was a requirement for everyone to have some 
form of information sharing by an outside or independent party, 
that would tremendously empower the IRS and the American 
taxpayer overall.
    Another study, and this was done professionally. If you are 
asked "Should you pay all the taxes you owe to the Federal 
Government'' again you have a 90-plus rate, 'Yes, I should.' If 
the question is changed, Senator, slightly to say, 'What if 
your neighbor down the block, Ms. Jones, isn't paying 
everything that she owes'' then the compliance rate goes down 
dramatically, because if she isn't paying everything, then why 
should I pay everything?
    So the bottom line, again, is third-party reporting. Then 
there's access to the new-hire database which is held in the 
Department of Health and Human Services, so that too could 
provide the IRS with tools to determine whether the information 
they're receiving is accurate, whether the person actually did 
earn what he or she said in the tax return that they filed. And 
then, of course, working on a lot of the refundable credits and 
the like, making sure people who----
    Senator Ayotte. Additional child tax credit, earned income 
tax credit. Yes, we've talked about the fraud and issues that 
need to be resolved. They could be better addressed there. I 
know you've issued reports about that.
    Mr. George. Yes.
    Senator Ayotte. And I also have legislation to address some 
of that.
    Mr. Koskinen. I would just add one thing, because we have 
an obligation to be as efficient as we can. We have an 
obligation to our employees. We have a great workforce who are 
committed to providing taxpayers the best service we can. 
People most frustrated by the level of taxpayer service are our 
taxpayer service employees, the people in the call centers who 
know the level of service they want to provide, they know the 
level of service taxpayers expect, and they are frustrated 
because we can't deliver. We just don't have the resources.
    In the little over 20 months since I started as 
Commissioner, the GAO, the Inspector General, the Taxpayer 
Advocate, and the oversight board all independently have stated 
to Congress that the IRS is under-funded and that, in fact, if 
we continue to have budget cuts, the level of services, the 
level of enforcement, the level of security will do nothing but 
go down.
    Senator Ayotte. Well, I would certainly like a commitment 
as well. I know there have been a number of issues raised, 
including the issue of when in 2014 IRS employees received 
bonuses in which they were rewarded after a report done by 
TIGTA revealed that the IRS had awarded $2.8 million in bonuses 
to more than 2,800 employees that had broken agency rules of 
conduct, including over 1,000 employees who owed back taxes 
themselves. So if we're going to allocate additional resources, 
we need better management also, and I have a list of issues 
like that that I know have been brought up in GAO and TIGTA 
reports, Commissioner.
    Mr. Koskinen. If you would like to send me that list. In 
that case, for instance, we have changed that rule. No longer 
does an employee--they're not bonuses, they're performance 
awards--even if a performance award is earned, no longer will 
it be paid to an employee who has violated an obligation, a 
serious obligation of the IRS, or is not compliant on their 
taxes. We've advised the union about that, and they have 
agreed.
    Senator Ayotte. Well, I appreciate that. I'll send you a 
list. I have a list.
    Mr. Koskinen. I'll be happy to have the list.
    Senator Ayotte. I have a list.
    Mr. Koskinen. Because I agree with you. Taxpayers need to 
know and be comfortable that they're going to get treated 
fairly no matter who they are and no matter what political 
party they belong to. We're spending taxpayer dollars, and 
taxpayers need to be comfortable that we are careful about it, 
that we're frugal, that we're as efficient as we can be. I 
think that's an obligation we have.
    Senator Ayotte. And recognize the immense power that the 
IRS has, and it's important in the sense that people, when 
they're interacting with the IRS, you have a tremendous amount 
of power, and it can be very intimidating.
    I wanted to follow up, on some of the issues that Mr. 
Walker raised as well. He raised an issue of the fact that 
things have changed in terms of how the professional community 
is able to get basic information using electronic databases on 
behalf of their clients. He described, I think, quite a run-
around of trying to best represent his clients in a way when 
they've been victims of identity theft, but also the story that 
he told about the check, when they were trying to correct the 
record and the run-around that has been given for this poor 
couple.
    So what's happened that the professional community isn't 
able to be part of the solution here and partner to help 
represent their clients as best they can to prevent identity 
theft, number one; and then hopefully if they become victims, 
to correct it?
    Mr. Koskinen. I was concerned about those vignettes because 
our most important partners in tax filing season are, in fact, 
CPAs, enrolled agents, tax attorneys, and preparers generally. 
But certainly enrolled agents and CPAs, we have partnerships 
with them, with the National Enrolled Agents Association. We 
have standing panels. We have advisory committees composed of 
preparers. I know the practitioner priority line, which is a 
line specially set aside for practitioners. Again, because of 
the cuts in personnel, as I said during the last year, it's an 
oxymoron. It's no longer a priority. You have to stay on the 
phone if you're a practitioner almost as long as taxpayers, and 
that's unacceptable because, as noted, the professionals on 
that line are in a position to solve problems and solve them 
quickly.
    This is the first I've heard that they have been declined 
access or can't get access electronically. We are concerned 
with electronic security, and we're dealing with very 
sophisticated, well-funded, organized criminals. A target of 
opportunity for them, besides retail operations, are tax 
preparers. They are increasingly trying to, in fact, steal the 
identity of tax preparers.
    So one of the issues we have is security, but this is the 
first time I've heard that they're having trouble getting in, 
because they shouldn't. We should be able to provide them easy 
access.
    Senator Ayotte. Well, absolutely, because they are part of 
the solution.
    Maybe, Mr. Lee, you've run into this in some of the work 
that you've done as well?
    Mr. Lee. I actually haven't been that involved in the 
practitioner aspect of it, so I don't think I can comment. But 
I agree with the Commissioner that the practitioners need to be 
included since they are----
    Senator Ayotte. I hope from this hearing we can have some 
follow-up to what Mr. Walker is dealing with, to help 
professionals help their clients to solve these problems. 
Obviously, if someone doesn't have the benefit of having 
professional help, we've just got to get this right for a 
person on their own to be able to resolve it more easily.
    Mr. Koskinen. As I've said--and you're exactly right, we 
have the possibility or the likelihood that we are intimidating 
to taxpayers. As our surveys have shown, if you ask taxpayers 
how they'd like to deal with this, the highest priority is not 
to have to deal with us at all.
    Senator Ayotte. Not to have to deal with it. Who wants to 
deal with the IRS, right?
    Mr. Koskinen. Right, we understand that.
    Senator Ayotte. Here you have people trying to correct the 
record with the IRS and----
    Mr. Koskinen. So one of the things we're trying to get 
people to understand and what I was surprised to learn when I 
became the Commissioner is the amount of time and effort we 
spend actually trying to help taxpayers. We have thousands of 
people on the phone, and their only job is to help taxpayers.
    So I have said, and I mean it honestly, if you have an 
issue with the IRS, you're trying to correct an issue, you're 
just trying to figure out how to make a payment or you have 
problems, you've lost a job, you have other challenges, you 
want to create an installment payment, we want to work with 
you. You don't have to call somebody off late-night TV to send 
them your account. If you're trying to become compliant, if 
you're trying to work it through, we want to work with you.
    If you're trying to avoid taxes, if you're trying to cheat, 
then we're happy to be unhappy about that, and those are the 
people who should be intimidated.
    But we're trying to make sure taxpayers understand we 
really take seriously, as you noted in your opening statement, 
our commitment and our mission to provide effective and 
appropriate taxpayer service. So wherever we can improve, we're 
going to try to do it. As I say, with Mr. Walker, I'm going to 
find out. As you noted, we have working panels all around the 
country where we have IRS executives and enrolled agents 
working regularly to deal with problems.
    Senator Ayotte. I think you'd better include him on this 
because he's got some good----
    Mr. Koskinen. He's already on some of them, as he noted. 
But we will find out, because I do think nobody is more 
important to us than professional preparers. As he said, 
they're solution providers. They can get the information. They 
can work with us to help expedite solutions. But even if you 
don't have a preparer, we are very anxious to help make it as 
smooth a process as possible.
    Senator Ayotte. Mr. George.
    Mr. George. Thank you, Senator. Related to what the 
Commissioner just said, the paid preparers are the vanguard 
because of the amount of work and the systems they provide the 
IRS and to the taxpayer. But you have to be honest when you 
think about the complexity of the tax code. One of the tax 
credits that is most abused throughout the tax code is the 
earned income tax credit. The instructions for completing that 
are 30 to 40 pages long, and the average person who takes 
advantage of that normally does not have the wherewithal to 
complete that him or herself.
    But keep in mind, we've estimated, as has the IRS, upwards 
of $20 billion a year is sent out incorrectly under that 
program. Now, a lot of the people who do benefit from that are 
getting some assistance preparing their taxes. I'm not going to 
point to, and we're not in a position to point to any 
particular source, but you need tax preparers, whether they're 
paid or whether they're volunteer, to not be complicit or to 
follow the rules that are required now to confirm that, yes, 
this person does that have dependent and is eligible to apply 
and receive this refundable credit, which means they don't need 
to owe taxes in order to get the money from the Treasury 
through the IRS.
    So complexity is important, or diminishing the complexity 
of completing your taxes.
    Senator Ayotte. Absolutely. And then, of course, for the 
additional child tax credit, you don't have to use the Social 
Security number for the child. We know you've issued reports on 
the billions of dollars that could be saved there, as well.
    Mr. George. We believe, although the IRS has a very 
different interpretation, that the ITIN, the Individual 
Taxpayer Identification Number, is sufficient for that credit. 
We don't agree with that interpretation, but the IRS has a 
different point of view there.
    Senator Ayotte. Well, I have legislation filed on that 
piece, and I think we'll save billions of dollars if we take 
the step that TIGTA has recommended on that.
    I wanted to make sure that we don't leave out two important 
issues. Number one, prevention. I know that we've heard that 
the Get Transcript issue, I believe you testified that the 
number was 350,000 potential impacts to taxpayers of personal 
information from how that was infiltrated. How are we going to 
prevent that in the future?
    And then to Mr. Lee's point, with the added filtering that 
the IRS is putting in. We want to make sure that we're doing 
whatever we can to prevent identity theft. The one-in-three 
false positives for people who are being flagged and then put 
through a rigmarole, how are we going to address those pieces? 
So what more to ensure that something like Get Transcript 
doesn't happen again? And then secondly, so we don't have so 
many false positives?
    Mr. George. I think this is important. That 350,000 figure 
I think is misleading because that doesn't include the 
dependents and others whose information is also contained----
    Senator Ayotte. So it's misleading in a--it's bigger.
    Mr. George. It's a low-ball figure.
    Mr. Koskinen. I wouldn't call it low.
    Senator Ayotte. So those are just the filers versus 
everyone else's information that may be impacted.
    Mr. Koskinen. And we notify everyone on there about the 
issues. The Get Transcript and the false positives, these are 
two related issues. We could make it impossible for a criminal 
to have access to Get Transcript, but at the same time we'd be 
making it impossible for a legitimate taxpayer to have access 
to Get Transcript.
    Even with the system in place, the criminal with all of 
that information still couldn't get through, but 22 percent of 
the taxpayers trying to get hold of transcripts can't get 
through because they can't answer their own questions.
    So as we get better filters, we're going to have higher 
false positives. But the other side of the one-third false 
positive it means that two-thirds of those refunds stopped were 
fraudulent. Had we had lower false positives, we would have had 
fewer stops and more identity theft. When we stop it at the 
door, it's a lot easier to resolve your account.
    Senator Ayotte. Just so we're clear, when we're talking 
about filters, or we're talking about how do we stop up-front, 
we're talking about things like multi-step verification where 
I'm asked what's my mother's maiden name, all those issues.
    Mr. Koskinen. Right. But when you file your return, we want 
to have a set of filters looking for anomalies to determine 
whether that's really your return. This year we stopped 3.2 
million returns that are suspicious. Probably a third of those 
are going to turn out to have been real taxpayers and their 
refund would have been delayed. The other two-thirds, a couple 
of million of them, will turned out to have been fraudulent.
    So the tradeoff, even on the security for Get Transcript, 
is how hard do you make it for a criminal to get through, at 
the same time you're trying not to make it hard for a 
legitimate taxpayer to get through.
    Senator Ayotte. So what do you think we can do more of in 
terms of taking steps to reduce the number of false positives--
--
    Mr. Koskinen. Well, with Get Transcript, for instance, when 
it happened, my sense was this is a critical issue for us 
because going forward, as Mr. Walker said, our goal is to be 
able to have taxpayers have an account with us electronically, 
digitally, where they can, in fact, access their information. 
Their preparer can access their account. They can make 
corrections directly on their return. They don't have to file a 
paper return. But to do that, the authentication--that the 
right taxpayer is accessing the account--is critical, 
obviously.
    So when we're looking at Get Transcript, we're not looking 
at it as how do we secure that application alone. We're looking 
at it to your question, how do we secure information about 
taxpayers to know that they are the right taxpayer, how do we 
know that the preparer is the right preparer. So we're spending 
a lot of time. I told a lot of people that I would rather put 
Get Transcript back up later, with more confidence that we've 
solved the problem, than rushing to get it up.
    One of the things we're looking at, for instance, is that 
we have to make it go from wholesale to retail. That is, we're 
going to make limitations that if you want to get a transcript, 
only one transcript will be given to an IP address or a 
computer, and probably only one a day. So if you want to go and 
come back and get it again, you can't get it again in an hour. 
You can't get another transcript. You have to come back the 
next day. It's a little less convenient for preparers and 
taxpayers, but it's a security level.
    We're thinking about, and we're investigating whether we 
could have you pay $2 for the transcript using your credit 
card, because the credit card verification would be another 
authentication. In a lot of cases in terms of verification, and 
one of the reasons we have this partnership for the first time 
with the private sector, is a lot of taxpayers have their 
identity verified on their own. A lot of taxpayers allow their 
preparers to take their W-2 information directly from the 
company. If a taxpayer can do that with their preparer, we and 
the preparer have a pretty good idea that that's a legitimate 
taxpayer. If we can pool as many taxpayers as we can in the 
legitimate pool, we'll then have a smaller number that we can 
take a harder look at, and that's what we're hoping to do with 
the state tax authorities as well as the private sector.
    But ultimately the bottom line is, as I say, we're dealing 
with organized criminal syndicates around the world. We will 
never be able to guarantee you that nobody is ever going to get 
through. We'll never be able to stop. We're going to always 
have to be agile and quick and always testing the system and 
trying to keep ahead of, if not up with, the criminals.
    Senator Ayotte. So I want to make sure I get any thoughts 
from Mr. George or Mr. Lee on this. But can I just add my two 
cents to this idea of giving $2 for a transcript on your credit 
card? With everything happening and the number of breaches that 
have happened in the Federal Government with OPM and everything 
else, I think people are going to be quite hesitant to want to 
give their credit card. So I hope we'll look at other ways that 
we can address this. That's just my two cents in hearing it.
    Mr. Koskinen. But that's a good two cents. We wouldn't keep 
the numbers, and it's a great way to verify who you are.
    Senator Ayotte. I think at the moment there are a lot of 
issues even on the other front, not only what's happened with 
the Get Transcript but thinking about the OPM and the massive 
amount of information that we're dealing with on the theft 
there.
    Mr. Koskinen. One thing we should remember, there's a big 
difference between what happened at OPM or Target or JPMorgan 
Chase and Get Transcript. Get Transcript is identity theft. 
Criminals had the information. OPM, Target, and the rest, 
Anthem, are all cyber breaches.
    We're under attack, give or take a little, a million times 
a week. Our system is under attack, over 50 million attacks a 
year on cyber security. So it's a critical issue. It's just a 
different issue than what we're dealing with in identity theft.
    Senator Ayotte. I didn't know if either of you had a 
comment on the prevention piece and where we should be.
    Mr. Lee. I just had a comment on the $2 charge. I mean, I'm 
very comfortable using online services, and I'd be fine with 
that $2 charge. But I believe, as the Senator mentioned, a lot 
of Americans would just be distrusting of the IRS in order to--
--
    Senator Ayotte. We're giving you a lot of information to 
start with, right? And a lot of dollars.
    Mr. Lee. A lot of taxpayers don't have credit cards.
    Senator Ayotte. That's a good point.
    Mr. Koskinen. We've thought about that, the ones who are 
unbanked or don't have credit cards, and we would be able to 
provide them a transcript. You go online and we mail it to you. 
But most people, when they're trying to get a mortgage or 
trying to get student loans, wait until the last minute, and 
then they need it immediately. But the point is well taken. As 
I say, financial institutions can decide some of their 
customers don't produce enough money and they can leave them 
aside. We don't have that luxury.
    Senator Ayotte. We can't leave anyone aside.
    Mr. Koskinen. We have 150 million taxpayers. Even if only 3 
or 4 percent of them don't like the Internet, don't have access 
to it, never want to use it--my mother-in-law is that way--3 to 
4 percent is 6 million people, and we need to be able to 
provide them appropriate levels of service no matter what else 
we do. So as we go forward in a digital economy, we're not 
going to leave those people behind.
    Senator Ayotte. So I want to make sure--I think prevention, 
anything we can do to, obviously, improve technology, and we're 
headed at least in a direction----
    Mr. Lee. I've got some thoughts on prevention, and this is 
probably outside the scope of what my boss would be comfortable 
for me to testify about.
    Senator Ayotte. That's why--he's not here, right?
    Mr. Lee. Okay. I'd like to just make a comment. We talked 
about moving up the deadline for information reporting so the 
IRS can verify that information. But I think we also need to 
talk about moving back the filing season and the issuance of 
refunds. So instead of taxpayers expecting to get refunds in 
January or February, I think we need to talk about having them 
wait until the summer so the IRS has a chance to look at the 
information that it collects in March.
    Senator Ayotte. This one won't be popular.
    Mr. Lee. It won't be popular, but I think that's something 
we need to have a conversation about, but I don't want to bring 
it to the table. You can foot that idea.
    Senator Ayotte. I think the challenge there is that when 
it's thousands of dollars for some families, that six months 
could be something that they've planned, it could be something 
that's really important to them.
    I had a constituent who their family went through 
difficulties, they were the victims of identity theft, and like 
your office does, trying to work with them to get their refund 
sooner because they thought they were going to lose their 
mortgage because they just happened to go through a bump on 
some other things that were happening and that was so critical, 
and if they had to wait. I think that's one of the challenges 
that identity theft victims are dealing with because for some 
people, depending on what's happening in their lives, it's a 
lot of money and makes a big difference.
    Mr. Lee. Right, it's a big percentage of their annual 
income that----
    Senator Ayotte. That's being held. It's their money. 
Exactly.
    Mr. Koskinen. So again, the tradeoff is that you're trying 
to protect everyone, because if we could have no one be a 
victim of identity theft, that would obviously be terrific. So 
it's, again, a tradeoff. There may be some inconvenience along 
the way to, in fact, try to increase the protection. So before 
Mr. Lee gets dismissed for his idea, people will build their 
lives around when they get their refund. If in one year 
everybody moved from January/February to, say, March or April, 
not June, then they'd count on their refunds in March or April, 
and we've begun to look at it and say what would that do? Would 
that make a significant difference in our ability to protect 
everybody?
    There is no idea that is not under consideration, and 
that's why these partnerships are wonderful, because we're open 
to ideas from other people as well, because there isn't a 
single silver bullet. The partnership, we hope, with preparers 
and state tax agencies will give us coordinated layers that 
criminals have to work through. But it will take everybody's 
best thoughts for us to continue to make progress.
    Senator Ayotte. And I really appreciate all the patience 
and these questions. I want to make sure I follow up on all the 
issues that have been raised. One of them was this issue that 
those who have been victims of identity theft, many of them can 
get the IP PIN number to make sure when they re-file that they 
don't become re-victimized. I heard that there was a big gap, I 
believe 530,000 taxpayers not provided these IP PINs that may 
be eligible for it that may need them. So how is this program 
working? Why aren't some taxpayers being given access to it?
    One couple asked me on the way in here today if they've 
been a victim of identity theft and they file the next year 
with the IP PIN program, is this something they're going to be 
continuing and able to do?
    Mr. Koskinen. Yes.
    Senator Ayotte. So it's not one year but they have that 
protection if they want to have it going forward.
    Mr. Koskinen. Yes. A lot of good questions in there. The IG 
has been very helpful to us over the years in reviewing and 
giving us suggestions, and we've adopted most of those, 
implemented most of their suggestions in this entire area.
    On the issue of IP PINs, the issue really was not so much 
people who had actually been victims but people whose records 
had been flagged.
    Senator Ayotte. So it would be victims or potential 
victims.
    Mr. Koskinen. People where there was suspicious activity in 
their account. There were 1,700,000 of those. So this year for 
the first time, we took that recommendation and sent out 1.5 
million IP PINs to known victims. We offered another 1.7 
million Americans IP PINs where their accounts had been 
flagged. They hadn't necessarily been victims but it was clear 
there was an issue.
    Similarly with Get Transcript, we offered everyone where 
there was any access to their transcript an IP PIN. Now, your 
point about it, we're considering right now that once you have 
an IP PIN, it's yours and you should actually use it every 
year, and each year we send you a new one. We're now looking 
at, well, could we give them to you for three years so every 
year you don't have to worry about if I move, does my IP PIN 
follow. But if you've signed up for it, or you have to use the 
IP PIN, and it goes for a while.
    The other thing we're looking at is after a number of 
years, and we know because we track, that even after we've 
stopped a return, the next year the fraudsters come back in a 
reasonable percentage of cases. So the IP PIN protection is 
very important.
    Senator Ayotte. Right, because once you've been victimized 
once--I have to say, my uncle was a victim of tax-related fraud 
too, and he wasn't just victimized once. It was twice.
    Mr. Koskinen. Yes, because what happens is--and especially 
when we've stopped them, you'd think, well, why would they file 
again? But it's not as if there's a single person out there. 
This data is out there and available to people, and it's being 
sold.
    Senator Ayotte. Yes, it's a criminal network using your 
data because it's out in this----
    Mr. Koskinen. So it may be a new network that buys a whole 
pool of Social Security numbers from other crooks, and they 
don't know--nobody is telling them this is a good Social 
Security number. They're just selling them--here's a thousand. 
So the IP PIN--we encourage people to use it.
    We have a pilot program we've run for two years in Florida, 
Georgia, and the District of Columbia, which are the hotbeds of 
SIRF, offering everyone in those states the opportunity to----
    Senator Ayotte. I'm starting to feel New Hampshire is a 
hotbed, unfortunately.
    Mr. Koskinen. You ought to go to Florida.
    So we're running pilots. The reason we're running these 
pilots is to see what the uptake is, what the cost is, what the 
burden is, because it is a way, in effect, of changing your 
identifier from your Social Security number to a number that 
only you and we have.
    Senator Ayotte. Right. And I know Mr. George wanted to jump 
in.
    Mr. George. Just to make this point about something 
perverse with all of this. And that is, again, if you don't 
have a filing obligation, and if the bad guy does assume your 
identity, believe it or not, the IRS communicates with the bad 
guy using the address the bad guy provides. So the senior 
citizen or somebody who otherwise doesn't have a filing 
obligation is just completely unaware that all of this is 
happening. And I don't fault the IRS necessarily here, but they 
have a very difficult job, Senator. As the Commissioner pointed 
out, they have to keep up with these very smart, overseas many 
of them, bad guys who are constantly thinking of new ways to 
manipulate the system, and it's a very difficult task.
    Senator Ayotte. This issue of the pilot, you notified 
25,000 taxpayers when you learned that their Social Security 
number may have been misused. Is this something that you plan 
to implement with everyone? That's been a piece of our 
legislation, that if the IRS knows that your Social Security 
number may have been misused. Often I'm hearing from taxpayers 
that they're finding it out when something happens to trigger 
it, whether they're filing their tax return or some other 
action. Maybe it's a credit issue or something. It's pretty 
valuable information, I think, for people to know as soon as 
possible to protect themselves.
    So what's your thought on that?
    Mr. Koskinen. As I say, this year, for anybody whose 
account has been flagged but is not necessarily a victim of 
identity theft, that 1.7 million we've written to and said that 
there's an indication of fraud, you can get an IP PIN if you 
would like one.
    Similarly, the purpose of this pilot is to, in fact, see 
what the burden is, what the take-up rate is, because as a 
general matter the risk for a taxpayer is not--I mean, it's a 
risk and an aggravation when you're an identity theft fraud 
victim, but they're not getting any more information from us 
about you. The risk is that they already have that information. 
So what we're trying to figure out is how do we let you know 
that even if you're not a victim of identity theft, you need to 
know that information is out there and being used by criminals. 
If you're not a victim of identity fraud, and even if you are, 
it doesn't affect your relationship. We'll work it out. The 
risk is it's being used also for other issues.
    Senator Ayotte. Oh, it puts people at risk. So I would hope 
that----
    Mr. Koskinen. Our goal is to do whatever we can, and the 
pilot will do that, to try to help people, even though it won't 
be in relation to us. But we just feel it's important for them 
to know that we have an indication that your data is out there 
being used by criminals.
    Mr. Lee. My understanding is that this recommendation was 
raised at the executive steering committee level this summer, 
so we're hopeful that the IRS will expand the program for all 
taxpayers, not just the 25,000.
    Senator Ayotte. Good. I hope so, too. And if not, we have 
legislation that would make sure that--we want people to know 
so that they can protect themselves.
    You've had the opportunity to hear from Ms. Weeks and also 
Mr. Walker, and I can assure you that they're representative of 
many people who are in this room and what they've gone through, 
but many people who can't be here today with this issue. It is 
my hope that the issue of getting the fraudulent return so the 
taxpayer can understand what's been used, that that will be 
resolved as soon as possible. You gave me a date of October, 
and we'll be following up on that.
    Mr. Koskinen. We'll be talking.
    Senator Ayotte. We'll be talking on that. I heard, 
Commissioner, that you want to get to an issue where the 
taxpayer is not getting the run-around and having to deal with 
multiple people if they're a victim of identity theft, and this 
seems to me a critical issue that we've got to do much better 
on so that people aren't getting re-victimized after they've 
gone through having their personal information stolen.
    And finally, I hope that any time the IRS knows that 
someone's information is being misused, that they will notify 
them and that will be something that is adopted for all 
taxpayers.
    There are a number of other issues that were raised here, 
and I think Mr. Walker has an invitation there to allow the 
professional community to help solve this problem too, to allow 
them to have access to the taxpayer information for their 
clients in appropriate ways to be able to solve this.
    So there were a number of issues that were raised today.
    I want to thank all of you for being here. I especially 
want to thank again Ms. Weeks and Mr. Walker. I plan to 
continue, obviously, working on this issue. I feel quite 
passionate about it, and we can do a lot better for taxpayers 
on every front, on prevention, and also how they are treated 
if, unfortunately, they become a victim of identity theft. This 
is a very critical issue.
    As you pointed out, Commissioner, we are facing a number of 
cyber-attacks that make this continue to be criminal networks 
who are misusing people's information, and I think we need to 
do everything we can on the law enforcement end to go after 
them as well.
    So with that, I'm going to conclude this hearing. I may 
leave the record open for some additional written follow-up 
questions, and I appreciate your traveling to New Hampshire 
today for this hearing.
    Before we end, I just want to very much thank the Budget 
Committee staff who have come here, Adam Kamp and Katie Smith 
and my own staff member, Marne Marotta. I would also say if my 
staff who are here, Anne Warburton and Jane Hirsch, they work 
on these cases on behalf of my constituents, and anyone who 
would like some help from our office, I do have my 
representatives here today and we would very much like to help 
you if you are a victim of identity theft to try, to cut 
through some of the rigmarole that we've talked about today.
    So, thank you all.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
